Docket No. ________________
____________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
____________________________________________
SANDY PEREZ HERNANDEZ,
PETITIONER,
-VTHE STATE OF TEXAS,

RESPONDENT.

On petition for writ of certiorari from the
Texas Court of Criminal Appeals

____________________________________________
APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
VOL. 1 OF 2

____________________________________________

Mr. Mike DeGeurin
Attorney for Sandy Perez Hernandez
300 Main Street, Suite 300
Houston, Texas
Phone: 713-655-9000
Fax: 713-655-1812
mike@fddlaw.net

TABLE OF CONTENTS
VOL. 1 OF 2
APPENDIX A –

Memorandum Opinion from the Texas 13th Court of Appeals

APPENDIX B –

Letter Denying Motion for Rehearing

APPENDIX C –

Letter Denying Motion for En Banc Reconsideration

APPENDIX D –

Letter Refusing Petition for Discretionary Review

APPENDIX E –

Judgments of Conviction
VOL. 2 OF 2

APPENDIX F –

Charge to the Jury

APPENDIX G –

Affidavit of Trial Attorney Fernando Mancias

APPENDIX H –

Affidavit of Trial Attorney Michael Tuttle

APPENDIX I –

Testimony Excerpts of Attorney Fernando Mancias

APPENDIX J –

Testimony Excerpts of Attorney Michael Tuttle

APPENDIX I –

Testimony Excerpts of Juror L

APPENDIX A –
Memorandum Opinion from the Texas 13th Court of Appeals

NUMBER 13-16-00696-CR
COURT OF APPEALS
THIRTEENTH DISTRICT OF TEXAS
CORPUS CHRISTI - EDINBURG
SANDY PEREZ HERNANDEZ,

Appellant,
v.

THE STATE OF TEXAS,

Appellee.

On appeal from the 139th District Court
of Hidalgo County, Texas.

MEMORANDUM OPINION
Before Chief Justice Contreras and Justices Benavides and Hinojosa
Memorandum Opinion by Justice Benavides
Appellant Sandy Hernandez was convicted of one count of manslaughter, a
second-degree felony, and one count of injury to a child, a first-degree felony. See TEX.
PENAL CODE ANN. §§ 19.04, 22.04(e) (West, Westlaw through 1st C.S. 2017).

She

challenges her conviction by what we construe to be thirty-one issues and subparts.
Hernandez complains on the following general grounds: double jeopardy, sufficiency of

the evidence, error in the jury charge, admission of expert testimony, jury unanimity,
ineffective assistance of counsel, and denial of her motion for new trial. We affirm.
I.
A.

BACKGROUND

Events of October 17, 2014
Hernandez gave birth to a full-term baby boy at home in Weslaco in the early

morning hours of October 17, 2014. She was a twenty-two-year old college student who
lived with her parents and siblings.
Hernandez explained the events of the morning to hospital staff as recorded in her
medical records. She felt fine until about two a.m. when she developed diarrhea. She
went to the bathroom several times and was “in and out of sleep.” She thought she was
going to have a bowel movement in bed but instead delivered an eight-pound baby. She
got up with the baby and went to the kitchen to find scissors to cut the umbilical cord.
Hernandez explained that she went outside so she would not make a mess.1 After she
cut the cord, she felt the placenta come out, and she saw a lot of blood. Hernandez
described wrapping the baby in a towel2 and leaving the baby in the yard before crawling
back to the house to ask for help. Hernandez did not know she was pregnant, denied
weight change, and stated she had menstrual spotting in August.
At trial, Hernandez’s mother Virginia Hernandez testified that she awakened
sometime before 6:00 a.m. when she heard a “faraway cry, ‘mom’” and she found her
daughter in the dining room. Hernandez was on the floor with “a lot of blood around her.”

1 Later that morning, Hernandez told Sheriff’s deputy Joe Black that she went outside to set off the
car alarm to wake her parents.
2

No testimony explains where Hernandez got the towel in which she wrapped the baby.

2

According to Virginia, Hernandez kept saying, “my baby, my baby.” Virginia woke her
husband and instructed him to call 911, explaining that “Sandy had a miscarriage.”
Virginia testified that Hernandez began getting hysterical and then went limp. Virginia
had not known her daughter was pregnant. Virginia further testified that Hernandez told
her that she slipped and fell with the baby on the tile floor before Virginia found her.
Virginia testified that she and her husband sleep with their door closed and locked.
They also use room air conditioners in the bedrooms that are noisy. Virginia testified
that Sandy had a boyfriend named Joel Jimenez.
Hernandez’s father Lionel Hernandez testified at trial that he called 911 and then
went outside to open the gate to the property. He noticed a “trail of blood” on the
driveway and carport but did not follow it.

After the paramedics arrived, he and

Lieutenant Efrain Bautista followed the blood and found the baby in the yard.
At trial, Sally Hernandez, Hernandez’s older sister, testified that she was
awakened by Virginia’s voice early that morning. Sally also testified that she sleeps with
her bedroom door closed and locked. When Sally came out of her room, she saw
Virginia trying to pull Hernandez up onto a dining room chair. Hernandez was very pale,
and Sally thought she was dying because of her paleness and the blood around her.
Sally heard Hernandez saying, “my baby, my baby” and did not understand what she
meant. Sally testified that Hernandez told her she slipped and fell with the baby in the
house and also fell with the baby outside.
Sally further testified that she arrived at the hospital a couple of hours after
Hernandez. Sally described Hernandez as “wailing, crying . . . very filled with complete
3

sadness. Just crying and crying and crying.” Sally testified that Hernandez told her that
she named the baby Julian Lionel Jimenez.
The paramedics, Lt. Bautista and Florentino Vela, testified at trial. According to
Lt. Bautista’s testimony, he arrived first; Lionel directed him into the house to see
Hernandez. Lt. Bautista began to attend to Hernandez and asked about the baby, but
she did not respond. Lt. Bautista explained that about five minutes after he arrived,
Lionel told him the baby was outside and took him to find the baby. It was dark, and they
used Lt. Bautista’s flashlight. Lt. Bautista saw the baby who appeared to be full term
lying in the grass next to a towel. The baby was cold to the touch and barely breathing.
The baby had some swelling on the side of his head. Lt. Bautista picked the baby up,
took him to the ambulance, took vital signs, and started to warm the baby. He also called
for another ambulance.
Florentino Vela, Lt. Bautista’s partner, took over Hernandez’s care. He noticed
the blood on and around her and wanted to transport her to deal with the blood loss.
Vela asked her what happened and in part of her response, she said “I didn’t know I was
pregnant. I didn’t know.” Vela was also concerned about her mental status; he had the
impression “that she was not all there . . . she wasn’t acting completely the way a normal
person that just delivered a baby would have acted.”
Deputy Joe Black with the Hidalgo County Sheriff’s Department (HCSO) testified
at trial that he interviewed Hernandez at the hospital. She was in a hospital room when
Deputy Black spoke to her and she seemed “calm and sad.” Hernandez told him she
did not know she was pregnant, that her last menstrual period was in mid-August, and
4

that Joel Jimenez was her boyfriend and the father of her child. Hernandez also told
Deputy Black that she picked up Joel from work around midnight, took him home to
Mercedes, and then went back to her house. After Hernandez got home, she did not
feel well and was having stomach pain. She told Deputy Black that she had the baby
around 4:30 that morning. Afterwards, she got scissors to cut the umbilical cord, and
then she went outside to set off the alarm on the car to alert her parents that she needed
help. Hernandez told Deputy Black that once she got outside, she realized she did not
have her keys, so she needed to go back inside. She collapsed with her son outside,
then wrapped him in a towel, left the baby on the lawn, and went in to tell her parents.
Hernandez explained that she was dizzy and might not have been able to open the door
with the baby in her arms. She described collapsing again when she got inside and that
woke her parents. Hernandez seemed worried about her son and told Deputy Black she
did not intend to hurt him.
Jennifer Almonte Gonzalez, M.D., the obstetrician and gynecologist on call,
testified at trial that she treated Hernandez at the hospital. Hernandez was in good
physical condition except for a midline perineal laceration that Dr. Hernandez repaired
under local anesthesia. The tear is a very common result of giving birth. Dr. Gonzalez
testified that she has delivered thousands of babies in normal vaginal births and none has
ever had a skull fracture. Hernandez did not tell Dr. Gonzalez that she fell or that she
injured the baby by falling. Hernandez’s doctors ordered a mental health evaluation that
she refused. She checked out of the hospital against medical advice at approximately 3
p.m. the next day.
5

B.

Baby Hernandez
Baby Hernandez was admitted to the hospital at 7:26 a.m. on October 17, 2014.

He died at approximately 8:00 p.m. that day.
Norma Jean Farley, M.D., a board-certified forensic pathologist who contracts with
Hidalgo County, performed the autopsy on Baby Hernandez. Dr. Farley described the
baby as a “term newborn infant.” According to Dr. Farley, Baby Hernandez or Julian
Jimenez’s cause of death was blunt force head trauma.
Dr. Farley described the infant’s condition during the autopsy.

His right eye,

especially the lower eyelid, had a “dark purple contusion with a little scrape on it . . . [and]
little bits of a bruise on the lateral part of the upper eyelid.” There was also a contusion
“extending all the way down to [the right] side of the face going into the scalp.” The
bruising went back behind the ear, included the ear, down to the neck and back up to the
face. There was a large area of bruising along the back of the neck into the occipital
scalp that was blue to maroon. There were multiple areas of bruising on both sides of
the back of the infant, but larger on the left side. On internal examination, Dr. Farley
noted a thick hematoma or hemorrhage within the scalp, between the scalp and the thin
membrane on top of the skull. Baby Hernandez’s brain was swollen due to his injuries.
In addition to swelling caused by his injuries, Dr. Farley explained that swelling may have
occurred because the baby did not get enough oxygen after birth, had low blood pressure,
and went into cardiac arrest.
Baby Hernandez had multiple skull fractures, including some that went entirely
through the bone. Once Dr. Farley opened the skull to get to the brain, she saw blood
6

in almost the “whole cerebral hemisphere.” The infant had retinal hemorrhages as well
as optic nerve injury.
The infant also had fractures of the fifth, sixth, and seventh posterior ribs on the
left side. Dr. Farley opined that all of the baby’s injuries could not have been caused by
a single trauma because there were different sets of contusions which led her to conclude
there were two impact sites in addition to the rib fractures on the baby’s back.
Dr. Farley testified that the trauma she observed could not have occurred as a
result of a difficult childbirth. In Dr. Farley’s experience and from her research, a fall onto
grass likewise could not have caused these injuries; short falls ordinarily do not kill
babies.3 In her opinion, the injuries to Baby Hernandez required a “great amount” of
inflicted force, “either a slam” or a “forceful beating on to the head” could cause the
injuries. The skull of an infant is pliable, and as a result, according to Dr. Farley, that
pliability limits the number of infant skull fractures even with significant force that causes
death.
Carlos Alberto Mattioli, M.D. testified for the defense.

He is a clinical and

anatomical pathologist and was recently Director of Laboratories at Mission Regional
Hospital. On average, Dr. Mattioli performed three to five autopsies a year, but likely
only ten on infants during his fifty-year career. Dr. Mattioli testified that even a short fall
can cause a fatal skull fracture to an infant. He concluded that the cause of the blunt
force trauma was an accidental fall.

3 Dr. Farley testified that she has performed more than 3,500 autopsies since 1999 and has
studied child fatalities since 2003, as evidenced by multiple papers and presentations, including studies of
injuries in child abuse victims since 2000.

7

C.

Hernandez’s Knowledge That She Was Pregnant
Hernandez had a positive pregnancy test at her university’s student health center

on February 10, 2014 according to university health center records. Hernandez’s mother
Virginia testified at trial that Hernandez passed a large blood clot in late February or early
March 2014 that she and Hernandez believed was a miscarriage. Hernandez did not
seek follow-up medical care to determine whether she was still pregnant.

Virginia

testified that she did not know Hernandez was pregnant before the apparent miscarriage.
Virginia purchased Hernandez and her sister’s tampons and other feminine
hygiene products and kept them in her bathroom.

She continued to purchase the

products and noticed the same usage of those products that entire year. According to
her testimony, Hernandez did not appear to gain weight, and she did not appear to be
pregnant in October 2014.
In July 2014, Hernandez took a trip to New Mexico with her father and brother.
Lionel testified that during the trip he did not observe anything that suggested to him that
Hernandez was pregnant. The evidence includes two photographs of Hernandez taken
during the trip in which she does not appear to be pregnant.
Sally testified that she met Hernandez’s boyfriend, Jimenez, several times before
October 2014. Hernandez never told her sister that she was pregnant. According to
Sally, she and Hernandez went swimming in early September. Hernandez wore a twopiece swimsuit and “there was no sign . . . of her being pregnant.”
Joel Julian Jimenez, the baby’s father, testified that he saw Hernandez regularly
in 2014 and was not aware that she was pregnant either in February 2014 or in October
8

2014.

Although she had gained a little weight, he saw no indication that she was

pregnant. They went to the beach in late August 2014. Hernandez wore a bikini but did
not have any visible baby bump. He continued to have sexual relations with Hernandez
through October 2014 and saw no indication that she was pregnant.
D.

Conviction and Punishment
Hernandez was indicted for capital murder, a capital felony, in count one and with

intentional or knowing injury to a child in count two. See id. §§ 19.02, 22.04. Although
Hernandez was charged with capital murder, the trial court’s charge to the jury also
submitted the lesser-included offenses of manslaughter and criminally negligent
homicide, a third-degree felony. See id. §§ 19.02, 19.03, 19.04, 19.05 (West, Westlaw
through 2017 1st C.S.). On count two, the trial court submitted injury to a child committed
intentionally or knowingly, and also the lesser-included offenses of injury to a child
committed recklessly, or with criminal negligence. Id. § 22.04(a)(1). Injury to a child
committed intentionally or knowingly is a first-degree felony; if committed recklessly, it is
a second-degree felony; and if committed with criminal negligence it is a state jail felony.
Id. § 22.04(e), (g). The jury found Hernandez guilty of manslaughter on count one and
intentional injury to a child on count two.
After a punishment hearing, the jury assessed punishment of imprisonment of
twenty years on count one and thirty-two years on count two in the Texas Department of
Criminal Justice–Institutional Division. The trial court rendered judgment based upon the
jury’s verdicts for guilt and punishment and ordered the sentences to run concurrently.

9

E.

Post-Trial Motions
Hernandez filed a motion for new trial on two grounds: 1) ineffective assistance of

counsel on multiple bases and 2) double jeopardy. The trial court denied the motion by
written order after a hearing. This appeal ensued.
II.

DOUBLE JEOPARDY

By issue one, Hernandez argues that her convictions for both manslaughter and
injury to a child violate the prohibition of double jeopardy because both convictions punish
the same conduct. U.S. CONST. amend. V. “The Fifth Amendment guarantee against
double jeopardy protects against: (1) a second prosecution for the same offense following
conviction; (2) a second prosecution for the same offense following acquittal; and (3)
multiple punishments for the same offense.” Illinois v. Vitale, 447 U.S. 410, 415 (1980).
The issue here is multiple punishments for the same crime.
A.

Applicable Law
Whether a defendant is exposed to double jeopardy is a question of law that we

review de novo. See United States v. Njoku, 737 F.3d 55, 68 (5th Cir. 2013); Yazdchi v.
State, 428 S.W.3d 831, 837 (Tex. Crim. App. 2014) (“Statutory construction is a question
of law, and we review the lower court's interpretation of a statute de novo.”); State v.
Donaldson, 557 S.W.3d 33, 40 (Tex. App.—Austin 2017, no pet.); see also Minor v. State,
No. 13–14–00161–CR , 2015 WL 4523812, *2 (Tex. App.—Corpus Christi June 25, 2015,
pet. ref’d) (mem. op., not designated for publication).
“Cumulative punishment may be imposed where separate offenses occur in the
same transaction, as long as each conviction requires proof of an additional element that
10

the other does not.” Blockburger v. United States, 284 U.S. 299, 304 (1932); Albrecht v.
United State, 273 U.S. 1, 11 (1927) (rejecting double jeopardy argument and affirming
separate convictions for sale and possession of liquor); see also Bien v. State, 550
S.W.3d 180, 185 (Tex. Crim. App. 2018); Littrell v. State, 271 S.W.3d 273, 275–76 (Tex.
Crim. App. 2008); Ex parte Ervin, 991 S.W.2d 804, 806–07 (Tex. Crim. App. 1999).
“[I]f the two offenses, as pleaded, have different elements under the Blockburger
test, the judicial presumption is that the offenses are different for double-jeopardy
purposes and multiple punishments may be imposed.” Id. But if the elements are the
same, the presumption that offenses are the same may be rebutted by “clearly expressed
legislative intent to create two separate offenses.” Bien, 550 S.W.3d at 184.
“When a legislature specifically authorizes multiple punishments under two
statutes, even if those two statutes proscribe the ‘same’ conduct, a court’s task of
statutory construction is at an end and the prosecutor may seek and the trial court or jury
may impose cumulative punishment under such statutes in a single trial.” Missouri v.
Hunter, 459 U.S. 359, 368–69 (1983); Jimenez v. State, 240 S.W.3d 384, 417–18 (Tex.
App.—Austin 2007, pet. ref’d); see also Desormeaux v. State, 362 S.W.3d 233, 236 (Tex.
App.—Beaumont 2012, no pet.) (holding that convictions for injury to a child and capital
murder for death of the child did not violate double jeopardy).4

In Almaguer v. State, the “State concede[d] Almaguer’s point on appeal and agrees that only one
judgment in this case can stand, and the others must be vacated.” 492 S.W.3d 338, 346 (Tex. App.—
Corpus Christi 2014, pet. ref’d). As a result, the court did not address the effect of section 22.04(h) which
permits multiple punishments for injury to a child. See TEX. PENAL CODE ANN. § 22.04(h) (West, Westlaw
through 2017 1st C.S.) (“A person who is subject to prosecution under both this section and another section
of this code may be prosecuted under either or both sections.”). Thus, Almaguer does not control the
disposition in this case.
4

11

B.

The Blockburger Test
A person commits manslaughter if she recklessly causes the death of an individual.

TEX. PENAL CODE ANN. § 19.04(a); Ex parte Ervin, 991 S.W.2d at 806. The elements of
intentional or knowing injury to a child are: 1) a person, 2) intentionally or knowingly, 3)
caused serious bodily injury, (4) to a child 14 years of age or younger. TEX. PENAL CODE
ANN. § 22.04(a); Wortham v. State, 412 S.W.3d 552, 554–55 (Tex. Crim. App. 2013).
Injury to a child requires that the injured person be a child and does not require that the
child die. See In re L.M., 993 S.W.3d 276, 283 (Tex. App.—Austin 1999, pet. denied)
(comparing elements of injury to a child and other offenses using Blockburger test).
Manslaughter does not require a child victim but requires a death. See TEX. PENAL CODE
ANN. § 19.04. In addition, the mens rea for each offense is different: manslaughter
requires recklessness, but Hernandez was convicted of intentionally or knowingly causing
injury to a child. See id. §§ 19.04, 22.04. Because the elements do not match under
the Blockburger test, there is no double jeopardy. See Blockburger, 284 U.S. at 304.
C.

Legislative Intent for Cumulative Punishment
However, even if the elements matched under Blockburger, injury to a child may

be punished under more than one provision of the penal code: “A person who is subject
to prosecution pursuant to [section 22.04] and another section of this code may be
prosecuted under either or both sections.” TEX. PENAL CODE ANN. § 22.04(h) (West,
Westlaw through 2017 1st C.S.); see Hunter, 459 U.S. at 368–69; Jimenez, 240 S.W.3d
at 417–18 (holding that convictions for both felony murder and injury to a child in the same
trial do not violate double jeopardy); Williams v. State, 294 S.W.3d 674, 680 (Tex. App.—
12

Houston [14th Dist.] 2009, pet. ref’d) (holding that convictions for capital murder and injury
to a child did not violate double jeopardy); see also Herrera v. State, No. 13-11-00036CR, 2011 WL 5005581, at *10 (Tex. App.—Corpus Christi Oct. 20, 2011, pet. ref’d) (mem.
op., not designated for publication) (holding that convictions for capital murder and injury
to a child in the same trial do not violate double jeopardy and collecting cases). Because
the Texas Legislature has specifically authorized cumulative punishments for injury to a
child, there is no double jeopardy violation.

See TEX. PENAL CODE ANN. § 22.04(h);

Hunter, 459 U.S. at 368–69.
We overrule Hernandez’s first issue.
III.

SUFFICIENCY OF THE EVIDENCE

By issues two and fourteen, Hernandez challenges the sufficiency of the evidence
to support her convictions.5
A.

Standard of Review
“The Constitution prohibits the criminal conviction of any person except upon proof

of guilt beyond a reasonable doubt.” Jackson v. Virginia, 443 U.S. 307, 319 (1979)
(citing In re Winship, 397 U.S. 358, 361 (1970)). We apply the sufficiency standard from
Jackson, which requires the reviewing court to “view[] the evidence in the light most
favorable to the prosecution,” to determine whether “any rational trier of fact could have

5

By issue three, Hernandez argues that we may not use any state statute, rule, or doctrine to avoid
judicial determination of constitutional sufficiency on count one. We construe Appellant’s third issue to
challenge section 6.03(e)’s use in the sufficiency analysis. See TEX. PENAL CODE ANN. § 6.03 (West,
Westlaw through 2017 1st C.S.) (stating that”[p]]proof of higher degree of culpability than that charged
constitutes proof of the culpability charged.”). The State argues issue three is inadequately briefed. Issue
three is briefed on a single page and does not cite the record. It cites federal authority but does not tie that
authority to Hernandez’s complaint. We agree that Hernandez inadequately briefed issue three, therefore,
we do not address it. See TEX. R. APP. P. 38.1(i); see Lucio v. State, 351 S.W.3d 878, 898 (Tex. Crim. App.
2011); Denoso v. State, 156 S.W.3d 166, 183–84 (Tex. App.—Corpus Christi 2005, pet. ref’d).

13

found the essential elements of the crime beyond a reasonable doubt.” Brooks v. State,
323 S.W.3d 893, 912 (Tex. Crim. App. 2010) (citing Jackson, 443 U.S. at 319). When a
reviewing court views the evidence in the light most favorable to the verdict, it “is required
to defer to the jury’s credibility and weight determinations because the jury is the sole
judge of the witnesses’ credibility and the weight to be given their testimony.” Id. at 899;
Hooper v. State, 214 S.W.3d 9, 13 (Tex. Crim. App. 2007) (citing Jackson, 443 U.S. at
318–19). “Circumstantial evidence is as probative as direct evidence in establishing the
guilt of an actor, and circumstantial evidence alone can be sufficient to establish guilt.”
Hooper, 214 S.W.3d at 13. If the record supports conflicting inferences, we presume
that the fact finder resolved the conflict in favor of the prosecution and defer to that
resolution. Garcia v. State, 367 S.W.3d 684, 686–87 (Tex. Crim. App. 2012); Brooks,
323 S.W.3d at 899.
Constitutional review of the sufficiency of the evidence is measured against the
elements of the criminal offense as defined by state law. Fuller v. State, 73 S.W.3d 250,
253 (Tex. Crim. App. 2002) (citing Jackson, 443 U.S. at 324 n.16). However, review of
the “sufficiency of the evidence should be measured by the elements of the offense as
defined by the hypothetically correct jury charge for the case.” Garcia, 367 S.W.3d at
687 (quoting Malik v. State, 953 S.W.2d 234, 240 (Tex. Crim. App. 1997)).
B.

Count One
Hernandez was charged with capital murder in count one, but the jury convicted

her of manslaughter. TEX. PENAL CODE ANN. §§ 19.03, 19.04. Hernandez challenges
the sufficiency of the evidence that her conduct was committed recklessly and whether
14

that conduct caused the death of Baby Hernandez.
Because manslaughter is a result-oriented offense, the defendant’s mental state
must relate to the result of her actions. Britain v. State, 412 S.W.3d 518, 520 (Tex. Crim.
App. 2013). “A person acts recklessly with respect to the result of [her] conduct when
[s]he is aware of but consciously disregards a substantial and unjustifiable risk that the
result will occur.” TEX. PENAL CODE ANN. § 6.03(c) (West, Westlaw through 2017 1st
C.S.); Atkinson v. State, 517 S.W.3d 902, 906 (Tex. App.—Corpus Christi 2017, no pet.).
Additionally, under Texas law, “[p]roof of a higher culpability than that charged
constitutes proof of the culpability charged.” TEX. PENAL CODE ANN. § 6.03(e). Thus, if
the evidence is sufficient to prove that Hernandez acted intentionally, it is also sufficient
to prove that she acted recklessly in causing the death of her child. Id.; Wayslina v.
State, 275 S.W.3d 908, 910 (Tex. Crim. App. 2009); see Brown v. State, 296 S.W.3d 371,
382 (Tex. App.—Beaumont 2009, pet. ref’d).
A jury may infer a culpable mental state from circumstantial evidence such as acts,
words, the conduct of the defendant, and from the nature and extent of the injury inflicted.
Guevara v. State, 152 S.W.3d 45, 50 (Tex. Crim. App. 2004); Patrick v. State, 906 S.W.2d
481, 487 (Tex. Crim. App. 1995); Atkinson, 517 S.W.3d at 906; see also Martin v. State,
246 S.W.3d 246, 263 (Tex. App.—Houston [14th Dist.] 2007, no pet.) (concluding that
evidence of severe brain injury was sufficient to show intent to kill ten-month-old victim).
The jury may use its collective common sense and apply common knowledge and
experience to determine whether the culpable mental state for a homicide offense was
proven. Atkinson, 517 S.W.3d at 906. It is a “common-sense inference” that a person
15

“intends the natural consequences of [her] acts[.]” Soliz v. State, 432 S.W.3d 895, 900
(Tex. Crim. App. 2014).
There was no direct evidence of how Baby Hernandez received the injuries that
led to his death. Several Hernandez family members repeated what Hernandez told
them that morning: 1) she did not know she was pregnant; 2) she gave birth in her bed,
3) she went outside, slipped in blood, and fell on the lawn; 4) while she was inside, she
slipped on the tile slope between the living room and dining room; and 5) both times she
fell on top of the baby. Hernandez was the only person with Baby Hernandez until the
baby was found outside after the EMTs arrived.
Dr. Farley testified that Baby Hernandez’s multiple skull fractures were not
consistent with a fall or with difficult childbirth but were instead consistent with multiple
blows in which the infant’s head struck an object with force or was stuck by an object with
force. On the other hand, Dr. Mattioli testified that a fall could have caused the infant’s
skull fractures. Hernandez argues other medical evidence supports her contention, but
her citation to the record does not support her argument.6
The jury could have inferred that Hernandez slammed the baby’s head into an
object or struck the baby’s head with an object either intending to kill him or knowing that
her action could cause serious injury resulting in death. See Stepherson v. State, 523
S.W.3d 759, 764 (Tex. App.—Houston [14th Dist.] 2017, no pet.) (holding that “based on
the evidence regarding the nature of the attack, the jury reasonably could have concluded
that appellant was aware of and consciously disregarded a substantial and unjustifiable

6

Although Appellant’s counsel cites Dr. Sidharthan’s testimony, Dr. Sidharthan did not testify at

trial.

16

risk that [the decedent’s] death would be the result of the beating.”); Yglesias v. State,
252 S.W.3d 773, 779 (Tex. App.—Houston [14th Dist.] 2008, pet. ref’d) (holding that the
evidence was sufficient to support a manslaughter conviction where the defendant had
sole care of child who suffered retinal hemorrhaging and skull fractures).
Because the legislature prescribed that a higher level of culpability constitutes
proof of the lesser culpability, the Jackson standard is satisfied if a rational jury could
have determined that Hernandez intended to cause the death of her child or recklessly
did so. See TEX. PENAL CODE ANN. 6.03(e). We conclude that the evidence is sufficient
in either case.
We overrule Hernandez’s second issue.
C.

Count Two
By issue fourteen, Hernandez challenges the sufficiency of the evidence to support

her conviction in count two, injury to a child. See id. § 22.04. By issues ten, eleven,
fifteen, and twenty-two, that we address separately in Part IV, she separately challenges
the judgment on grounds that the jury was not unanimous, there was a fatal variance in
the jury charge, and the jury charge amended the indictment.
As with manslaughter, injury to a child is a result-oriented crime, which means the
culpable mental state relates to causing the result rather than merely engaging in the
conduct and mental culpability usually must be inferred from the circumstances. Kelley
v. State, 187 S.W.3d 761, 763 (Tex. App.—Houston [14th Dist.] 2006, pet. ref’d). A
person acts intentionally with respect to a result of her conduct when it is her conscious
objective or desire to cause the result. TEX. PENAL CODE ANN. § 6.03(a). Serious bodily
17

injury is a “bodily injury that creates a substantial risk of death or that causes death,
serious permanent disfigurement, or protracted loss or impairment of the function of any
bodily member or organ.” Id. § 1.07(a)(46) (West, Westlaw through 2017 1st C.S.).
When an adult defendant has had sole access to a child at the time the child
sustained injuries, Texas courts have repeatedly found the evidence sufficient to support
a conviction for intentional injury to a child or murder if the child dies. See Yglesias, 252
S.W.3d at 779; Robbins v. State, 27 S.W.3d 245, 248 (Tex. App.—Beaumont 2000), aff’d,
88 S.W.3d 256 (Tex. Crim. App. 2002) (affirming conviction for capital murder where
defendant was alone with toddler when she sustained fatal injuries); Garcia v. State, 16
S.W.3d 401, 405 (Tex. App.—El Paso 2000, pet. ref’d) (affirming capital murder of a
child); Bryant v. State, 909 S.W.2d 579, 583 (Tex. App.—Tyler 1995, no pet.) (affirming
conviction for aggravated injury to child); see also Elledge v. State, 890 S.W.2d 843, 846–
47 (Tex. App.—Austin 1994, pet. ref’d) (affirming conviction for injury to a child for head
injuries that occurred when the defendant was alone with the baby).
“Proof of a defendant’s culpable state of mind is almost invariably proven by
circumstantial evidence. On the question of intent, the jury is called upon to review all
the evidence and may reasonably conclude from the circumstantial evidence that the
requisite mental state existed . . .”. Morales v. State, 828 S.W.2d 261, 263 (Tex. App.—
Amarillo 1992), aff’d, 853 S.W.2d 583 (Tex. Crim. App. 1993). In Morales, the defendant
was convicted of intentionally causing serious bodily injury to a child when the child “was
found to have . . . comminuted skull fractures where the actual crack in the skull goes in
more than one direction. And he was found to have blood around the brain, intercranial
18

bleeding [and] hemorrhage into the eyes.” Id. at 264. “Medical evidence of this nature
is sufficient for the jury to infer appellant’s intent to cause the child serious bodily injury.”
Id.
Considering the evidence in the light most favorable to the verdict, as we must, we
conclude the medical evidence detailed in Parts I(B) and III(B) of this memorandum
opinion enabled the jury to find that Hernandez struck Baby Hernandez with an object or
slammed the child into an object that caused the multiple skull fractures and that she
intended to cause serious bodily injury to him. See Patrick, 906 S.W.2d at 487; Martinez
v. State, 468 S.W.3d 711, 715 (Tex. App.—Houston [14th Dist.] 2015, no pet.) (holding
that the child’s injuries, which were consistent with repeated violent shaking and forceful
head impact, supported an inference that they were caused intentionally or knowingly);
Herrera v. State, 367 S.W.3d 762, 771–72 (Tex. App.—Houston [14th Dist.] 2012, no pet.)
(holding that “[t]he severity and number of [the child’s] injuries also support a finding that
appellant caused them intentionally or knowingly. Intent can be inferred from the extent
of the injuries to the victim . . . .”).
We hold the evidence is sufficient to support Hernandez’s conviction on count two
and overrule issue fourteen.
IV.

IDENTIFICATION OF THE VICTIM, VARIANCE, AND JURY UNANIMITY

By issues ten, eleven, fifteen, and twenty-two, Hernandez challenges the
sufficiency of the evidence of the identity of the victim and the unanimity of the jury’s
verdict.

By issues twelve and thirteen, Hernandez complains that the jury charge

effectively violated article 28.10 of the code of criminal procedure by amending the
19

indictment. TEX. CODE CRIM. PROC. ANN. art. 28.10 (West, Westlaw through 2017 1st
C.S.). By issues sixteen and seventeen, Hernandez argues that there is a material
variance in count two between “Jose” as alleged in the indictment,7 and the application
paragraph that referenced “Joel.”
A.

Evidence of Baby Hernandez’s Name
Baby Hernandez was identified at trial three different ways: as Baby Hernandez,

Joel Lionel Jimenez, and as Julian Lionel Jimenez.

Evidence included a baptism

certificate for Joel Lionel Jimenez,8 the child of Joel Jimenez and Sandy Hernandez, and
Investigator Noe Salazar of the HCSO testified that he heard Hernandez tell the priest
that the baby’s name was Joel Lionel Jimenez. However, Jimenez testified that his son’s
name was Julian Jimenez and Sally testified that Hernandez named the baby Julian
Lionel Jimenez. The autopsy report prepared by Dr. Farley indicates that the subject is
Julian Jimenez, Baby Boy Hernandez.

The medical records reference Baby Boy

Hernandez. The evidence does not include either a birth or death certificate.
During closing, the State reminded the jury that it heard evidence that the baby’s
name was both Joel and Julian and that Investigator Salazar identified an autopsy photo
as the child he believed was named Joel Lionel Jimenez. There was no mention at trial
of the name Jose Lionel Jimenez other than in the indictment.
B.

Sufficiency of the Evidence of Identification of the Infant

7

Hernandez did not object to the indictment before trial. As a result, she waived any complaint
regarding defects or errors in the indictment. See TEX. CODE CRIM. PROC. ANN. art. 1.14(b) (West, Westlaw
through 2017 1st C.S.); Salahud-din v. State, 206 S.W.3d 203, 212 (Tex. App.—Corpus Christi 2006, pet.
ref’d).
8

Hernandez asked the priest at the hospital to baptize her son before he died.

20

Hernandez challenges the sufficiency of the evidence of identification of the victim
on count two pursuant to the Jackson standard. 443 U.S. at 319. She argues that the
evidence is insufficient to prove the death of Julian Lionel Jimenez based upon the name
in the jury charge. See Fuller, 73 S.W.3d at 252 (federal constitutional law measures
evidentiary sufficiency against the “elements of the criminal offense as defined by state
law”). We review her challenge using the Jackson standard, as discussed in Part III(A).
443 U.S. at 319.
Hernandez was convicted of injury to a child for the death of Joel Lionel Jimenez.
There was evidence at trial that identified Hernandez’s newborn as Joel Lionel Jimenez
and other evidence that his name was Julian Lionel Jimenez. However, state law does
not require the name of the victim as a substantive element of injury to a child. See TEX.
PENAL CODE ANN. § 22.04; Vaughn v. State, 530 S.W.2d 558, 560 (Tex. Crim. App. 1976)
(holding that failure to set out the name of the child in an indictment for burglary with intent
to injure a child did not render indictment fatally defective). Because sufficiency does
not require the name of the deceased victim as an element of the crime, the difference in
the name in the jury charge and Hernandez’s asserted legal name of the baby does not
affect this Court’s sufficiency analysis. The evidence is sufficient to support Hernandez’s
conviction on count two for intentional injury to her infant son.
We overrule Hernandez’s fifteenth and twenty-second issues.
C.

Variance
Hernandez’s issues thirteen, sixteen, and seventeen argue that the jury charge

fatally varied from the indictment in count two and deprived Hernandez of the notice
21

required by due process.
1. Standard of Review and Applicable Law
The general rule that allegations and proof must correspond is based upon the
obvious requirements: 1) that the accused shall be definitely informed as to the charges
against her, so that she may be enabled to present her defense and not be taken by
surprise by the evidence offered at the trial; and 2) that she may be protected against
another prosecution for the same offense. Gollihar v. State, 46 S.W.3d 243, 246 (Tex.
Crim. App. 2001). Variance between the indictment and the jury’s verdict or the evidence
is treated as an insufficiency claim that we review under the Jackson standard. 443 U.S.
at 319; see Gollihar, 46 S.W.3d at 247. Although “variance law pre-dates Jackson, it has
since been viewed by this Court as subsumed by the Jackson standard . . .”. Gollihar,
46 S.W.3d at 246; see Hernandez v. State, 556 S.W.3d 308, 314 (Tex. Crim. App. 2017)
(op. on reh’g) (finding no material variance).

“A variance becomes ‘fatal’ when the

variance between the indictment and the evidence at trial denies the defendant notice of
the charges against [her].” Gollihar, 46 S.W.3d at 256.
Mistakes or variances that do not prejudice a defendant’s substantial rights are
immaterial. Byrd v. State, 336 S.W.3d 242, 247–48 (Tex. Crim. App. 2011). “The true
inquiry, therefore, is not whether there has been a variance in proof, but whether there
has been such a variance as to ‘affect the substantial rights’ of the accused.” Berger v.
United States, 295 U.S. 78, 82 (1935); Gollihar, 46 S.W.3d at 246.

“[I]f, upon an

examination of the entire record, substantial prejudice does not appear, the error must be
regarded as harmless.” Berger, 295 U.S. at 82.
22

2. Discussion
Hernandez gave birth on October 17, 2014, and her child died later that same day
of head injuries. Those facts are not controverted. The name of Baby Hernandez is not
clear from the evidence as discussed in Part IV(A), but that Hernandez had only one child
who died from head injuries on October 17, 2014 is beyond dispute. The cause of the
child’s head injuries and whether those injuries were caused by Hernandez’s criminal acts
or caused accidentally were the focus of the proceedings.
Hernandez was indicted in count one for “intentionally and knowingly caus[ing] the
death of an individual, namely Joel Lionel Jimenez . . .”. In count two Hernandez was
indicted for:
intentionally and knowingly caus[ing] serious bodily injury to Joel Lionel
Jimenez . . . by manner and means unknown or unknowable to the grand
jurors; . . .
intentionally and knowingly cause[ing] serious bodily injury to Jose Lionel
Jimenez . . . by striking Joel Lionel Jimenez against an object unknown to
the grand jurors; and . . .
intentionally and knowingly cause[ing] serious bodily injury to Jose Lionel
Jimenez . . . by striking Joel Lionel Jimenez . . . .
Count two alleged three separate ways in which Hernandez caused injury to the child.
Count two has what appears to be typographical error in the second and third paragraphs
which state that striking Joel Lionel Jimenez caused injury to Jose Lionel Jimenez. The
jury charge for count two identifies the injured child solely as Joel Lionel Jimenez:
Now if you find from the evidence beyond a reasonable doubt that on or
about October 17, 2014, in Hidalgo County, Texas, the Defendant, SANDY
PEREZ HERNANDEZ, did then and there intentionally or knowingly cause
serious bodily injury to Joel Lionel Jimenez, a child 14 years of age or
younger, by manner and means unknown and unknowable to the grand
jurors, or by striking him against an object unknown to the grand jurors or
23

by striking him with an object unknown to the grand jurors, then you will find
the Defendant GUILTY of the offense of INJURY TO A CHILD as charged
in the indictment.
Defense counsel did not object to the jury charge, nor did he request a different
submission.
Hernandez argues that the variance between the jury charge and the evidence
was “so significant that it left the jury [and this Court] unable to tell whether the victim
proven was the same person as the victim alleged.” The State responded that the name
of the victim in a result of conduct case is not a statutory element but relates to the unit
of prosecution. See Johnson v. State, 364 S.W.3d 292, 294–95 (Tex. Crim. App. 2012);
Fuller, 73 S.W.3d at 253–54; Kelley, 187 S.W.3d at 763.
We use the factors outlined in Berger and Byrd to determine whether Hernandez’s
substantial rights have been prejudiced. 295 U.S. at 82; 336 S.W.3d at 247–48. A
variance such as the name of the victim in a result-of-conduct offense “can never be
material because such a variance can never show an ‘entirely different offense’ than what
was alleged.” Johnson, 364 S.W.3d at 298. The evidence is that the child to whom
Hernandez gave birth on October 17, 2014 is the child who died. Hernandez has not
demonstrated that she was deprived of notice and she is not subject to double jeopardy
as a result of the typographical error in the indictment. Here, the variance between the
indictment and the jury charge is immaterial.9

9

Although Hernandez alleges that the variance between the indictment and the jury charge is
structural error and not subject to a harm analysis citing Adames v. State, 353 S.W.3d 854, 858–59 (Tex.
Crim. App. 2011) and Wooley v. State, 273 S.W.3d 260, 268 (Tex. Crim. App. 2008), the Court is not
persuaded. Wooley reversed a conviction of the defendant as a party to the offense when that theory was
not in the indictment. 273 S.W.3d at 268. In Adames, the defendant was charged with capital murder,
but the jury charge did not include the language necessary to convict him as a party in the application
paragraph and the evidence was insufficient to support his conviction as a primary actor. 353 S.W.3d at

24

We overrule Hernandez’s thirteenth, sixteenth and seventeenth issues.
D.

Amendment of the Indictment
By issue twelve, Hernandez contends that the jury charge effectively amended

paragraphs two and three of count two of the indictment in violation of article 28.10. TEX.
CODE CRIM. PROC. ANN. art. 28.10 (West, Westlaw through 2017 1st C.S.) (amendment
of indictment). However, “[a]n amended indictment does not charge the defendant with
a different offense if the amendment alters an element of the offense charged . . . or
changes the name of the complainant.” Id. art. 28.10(c) (emphasis added); see also
Marks v. State, 525 S.W.3d 403, 412 (Tex. App.—Houston [14th Dist.] 2017), aff’d, 560
S.W.3d 169 (Tex. Crim. App. 2018); Bynum v. State, 874 S.W.2d 903, 905–06 (Tex.
App.—Houston [1st Dist.] 1994, pet. ref’d) (holding that changing the name of the person
assaulted in the indictment did not prejudice the defendant’s substantial rights or violate
article 28.10(c)).
Further, article 28.10 provides in part that the indictment may be amended after
trial commences if the defendant does not object. Id. art. 28.10(b). To the extent the
jury charge amended the indictment, Hernandez did not object and therefore waived this
issue. See TEX. R. APP. P. 33.1(a)(1); Hoitt v. State, 30 S.W.3d 670, 674 (Tex. App.—
Texarkana 2000, pet. ref’d). We overrule Hernandez’s twelfth issue.
E.

Jury Unanimity
By issues ten and eleven, Hernandez challenges her conviction on count two

contending that the State failed to obtain a unanimous jury verdict. Hernandez argues

858–59.

25

that because the indictment in two paragraphs of count two referred to Jose Lionel
Hernandez, which was not part of the jury charge, the trial court should have granted her
motion for new trial on that ground. In support, Hernandez cites Ngo v. State, 175
S.W.3d 738, 751 (Tex. Crim. App. 2005).
1. Standard of Review and Applicable Law
We review jury charge issues to first determine whether error exists. Id. at 743.
If we find error, we analyze the error for harm. Id. If the defendant failed to preserve
error, we will not reverse unless we find egregious harm. Id. at 744. “Jury-charge error
is egregiously harmful if it affects the very basis of the case, deprives the defendant of a
valuable right, or vitally affects a defensive theory.” Marshall v. State, 479 S.W.3d 840,
843 (Tex. Crim. App. 2016) (internal citation omitted); Warner v. State, 245 S.W.3d 458,
461 (Tex. Crim. App. 2008).

Under the relevant standard, we have traditionally

considered (1) the entirety of the jury charge, (2) the state of the evidence, (3) counsel’s
arguments, and (4) any other relevant information revealed by the entire trial record.
Marshall, 479 S.W.3d at 843.
We review a trial court’s ruling on a motion for new trial for an abuse of discretion.
State v. Thomas, 428 S.W.3d 99, 103 (Tex. Crim. App. 2014). “The test for abuse of
discretion is not whether, in the opinion of the appellate court, the facts present an
appropriate case for the trial court’s action, but rather, ‘whether the trial court acted
without reference to any guiding rules or principles.’” Id.
2. Discussion
The Texas Constitution requires that a criminal “jury must unanimously agree
26

about the occurrence of a single criminal offense, but they need not be unanimous about
the specific manner and means of how that offense was committed.” Young v. State,
341 S.W.3d 417, 422 (Tex. Crim. App. 2011); see also O’Brien v. State, 544 S.W.3d 376,
382 (Tex. Crim. App. 2018); TEX. CONST. Art. 5, § 13. “[N]on-unanimity may occur when
the State presents evidence demonstrating the repetition of the same criminal conduct,
but the actual results of the conduct differed.” Cosio v. State, 353 S.W.3d 766, 771–72
(Tex. Crim. App. 2011). “[N]on-unanimity may [also] occur when the State charges one
offense and presents evidence that the defendant committed the charged offense on
multiple but separate occasions. Each of the multiple incidents individually establishes
a different offense or unit of prosecution.” Id. at 772. “[T]hird and finally, non-unanimity
may occur when the State charges one offense and presents evidence of an offense,
committed at a different time, that violated a different provision of the same criminal
statute.” Id.
In Ngo, the State charged the defendant with committing three separate crimes
under section 32.31 of the penal code: 1) stealing a credit card belonging to another, 2)
receiving a credit card from another knowing that it had been stolen and acting with intent
to use it, and 3) presenting the credit card of another with the fraudulent intent to obtain
a benefit knowing its use was without the effective consent of the owner. Ngo, 175
S.W.3d at 744; TEX. PENAL CODE ANN. § 32.31(b) (West, Westlaw through 2017 1st C.S.).
The jury charge allowed the jury to convict Ngo by a general verdict if it found any one of
the offenses as proved. Ngo, 175 S.W.3d at 744. The error was that not all of the jurors
had to agree on which of the crimes were committed. Id. Ngo provides an example of
27

the third kind of non-unanimous verdict described in Cosio. See Cosio, 353 S.W.3d at
772.
Ngo unanimity is not the issue here. There is only one crime alleged, injury to a
child, who is mistakenly referred to as Jose in two of the three paragraphs of count two
of the indictment. Injury to a child is a result-of-conduct offense in which the gravamen
of the offense is the injury to the victim. See O’Brien, 544 S.W.3d at 383; Young, 341
S.W.3d at 423 (describing result-of-conduct offenses); Jefferson v. State, 189 S.W.3d
305, 312 (Tex. Crim. App. 2006) (noting that injury to a child is a result-of-conduct
offense). The name of the child is not an element of the offense. The jury’s answer to
the question in count two is supported by the evidence that Joel Lionel Jimenez was the
injured child, although the charge differs from the indictment.
As discussed in previous parts of this memorandum opinion, there was only one
child in this case, the child to whom Hernandez gave birth and who died. The jury charge
asked the jury to decide whether Hernandez had the requisite intent on October 17, 2014
to cause serious injury to that child and it unanimously found that she did.
To the extent there was error as Hernandez alleges (although we do not find any),
we do not find egregious harm from the error. The discrepancy between the indictment
and the jury charge did not affect Hernandez’s defense, which was that she accidentally
fell on the baby, nor did it deprive her of a valuable right, or affect the very basis of the
case. See Marshall, 979 S.W.2d at 843. Accordingly, the trial court did not abuse its
discretion by denying Hernandez’s motion for new trial on this issue.
We overrule Hernandez’s issues ten and eleven.
28

V.

OMISSION OF VOLUNTARY CONDUCT AND RELATED ISSUES FROM JURY INSTRUCTIONS
By issues five, seven, eight, twenty, and twenty-one, Hernandez complains that

the trial court failed to instruct the jury that Hernandez’s alleged criminal conduct must
have been voluntary and contends that the jury could not have properly judged the case
without that instruction. See TEX. PENAL CODE ANN. § 6.01 (West, Westlaw through 2017
1st C.S.). By issue six, Hernandez argues that omission of the instruction on voluntary
conduct caused harm. Hernandez also complains of the trial court’s concomitant failure
to define “act” or to instruct on the burden of proof related to any defensive issue. See
id. §§ 1.07(a)(1), 2.03(d) (West, Westlaw through 2017 1st C.S.).
A.

Standard of Review
As discussed in Part IV(A), we review challenges to the jury charge to determine

whether there was error, and if not preserved, whether the error caused egregious harm.
Vasquez v. State, 389 S.W.3d 361, 369 (Tex. Crim. App. 2012); Ngo, 175 S.W.3d at 743–
44.
B.

Voluntary Conduct and Law Applicable to the Case
1. Definition of Voluntary Conduct
Section 6.01(a) states: “A person commits an offense only if he voluntarily engages

in conduct, including an act, an omission, or possession.” TEX. PENAL CODE ANN. § 6.01.
“The issue of voluntariness of one’s conduct is separate from the issue of one’s mental
state” and relates “only to one’s own physical body movement.” Febus v. State, 542
S.W.3d 568, 574 (Tex. Crim. App. 2018).

“If those physical movements are the

nonvolitional result of someone else’s act, are set in motion by some independent non29

human force, are caused by a physical reflex or convulsion, or are the product of
unconsciousness, hypnosis, or other nonvolitional impetus, that movement is not
voluntary.” Rogers v. State, 105 S.W.3d 630, 638 (Tex. Crim. App. 2003).
2. Law Applicable to the Case
Hernandez argues that because article 36.14 requires the trial court to instruct the
jury on the law applicable to the case, the trial court is required to include unrequested
defensive issues, citing Taylor v. State. See TEX. CRIM. PROC. ANN. art. 36.14 (West,
Westlaw through 2017 1st C.S.); 332 S.W.3d 483 (Tex. Crim. App. 2011). By issue five,
Hernandez argues that because the evidence could support a finding that Baby
Hernandez’s death resulted from Hernandez’s falling on the tile and lawn and not by any
intentional or reckless act, the jury should have been instructed on voluntariness in the
jury charge.
“[A]n instruction on voluntariness under section 6.01(a) is necessary only if the
accused admits committing the act or acts charged and seeks to absolve [her]self of
criminal responsibility for engaging in the conduct.” Chakravarthy v. State, 516 S.W.3d
116, 133 (Tex. App.—Corpus Christi 2017, pet. ref’d) (citing Peavey v. State, 248 S.W.3d
455, 465 (Tex. App.—Austin 2008, pet. ref’d)); Trujillo v. State, 227 S.W.3d 164, 169 (Tex.
App.—Houston [1st Dist.] 2006, pet. ref’d); Bell v. State, 867 S.W.2d 958, 962 (Tex.
App.—Waco 1994, no pet.). As such, it is a defensive issue. See Bundage v. State,
470 S.W.3d 227, 231 (Tex. App.—Houston [1st Dist.] 2015, no pet).
“An unrequested defensive issue is not the law applicable to the case.” Taylor,
332 S.W.3d at 487 (citing Posey v. State, 966 S.W.2d 57, 62 (Tex. Crim. App. 1998)).
30

Although “[a] defendant is entitled, upon a timely request, to an instruction on any
defensive theory raised by the evidence,” she must timely request an instruction on that
specific theory, and the evidence must raise that issue. Rogers v. State, 105 S.W.3d
630, 639 (Tex. Crim. App. 2003); Brown v. State, 955 S.W.2d 276, 279–80 (Tex. Crim.
App. 1997). The trial court does not have an obligation to include defensive issues in
the jury charge absent a request or objection by defense counsel. See Posey, 966
S.W.2d at 62.
To preserve error for appellate review, the defendant must sufficiently identify the
defensive theory for which she seeks an instruction. Rogers, 105 S.W.3d at 639–40;
Posey, 966 S.W.2d at 63–64. Hernandez did not request this defensive issue, nor did
she object to its absence from the jury charge. See TEX. R. APP. P. 33.1. “A defendant
cannot complain on appeal about the trial judge’s failure to include a defensive instruction
that [s]he did not preserve by request or objection: [s]he has procedurally defaulted any
such complaint.” Vega v. State, 394 S.W.3d 514, 519 (Tex. Crim. App. 2013); Posey,
966 S.W.2d at 63–64.
Because the trial court was not required to include an unrequested defensive issue
and Hernandez failed to preserve any issue, we overrule Hernandez’s fifth, sixth,
twentieth, and twenty-first issues.
C.

Omission of Jury Instructions and Definitions on Sections 1.07(a)(1), 2.03(d),
and 6.01 of the Penal Code
Hernandez argues by issues seven and eight that the omission of jury instructions

on sections 1.07(a)(1), 2.03(d), and 6.01 of the penal code deprived her of constitutional
due process, trial by an impartial jury, a complete verdict, and resulted in harm. See
31

TEX. PENAL CODE ANN. §§ 1.07(a)(1), 2.03(d), 6.01 (West, Westlaw through 2017 1st
C.S.).
1. Standard of Review
A trial court has broad discretion in submitting instructions and definitions to the
jury. See Nejnaoui v. State, 44 S.W.3d 111, 119 (Tex. App.—Houston [14th Dist.] 2001,
pet. ref’d). A trial court abuses its discretion when it acts without reference to guiding
principles or rules and outside the wide zone of reasonable disagreement. See Casey
v. State, 215 S.W.3d 870, 879 (Tex. Crim. App. 2007); Lyles v. State, 850 S.W.2d 497,
502 (Tex. Crim. App. 1993). A trial court must define any legal phrase that a jury must
necessarily use in properly resolving the issues. Breckinridge v. State, 40 S.W.3d 118,
123 (Tex. App.—San Antonio 2000, pet. ref’d.).
Although the failure to define a statutory term in the jury charge may constitute
error, in the absence of preservation of that error, we may only reverse if the error causes
egregious harm. TEX. CODE CRIM. PROC. ANN. art. 36.19 (West, Westlaw through 2017
1st C.S.); Sanchez v. State, 376 S.W.3d 767, 775 (Tex. Crim. App. 2012) (op. on reh’g);
Arline v. State, 721 S.W.2d 348, 351 (Tex. Crim. App. 1986).
2. Definitions and Instruction
Section 1.07(a)(1) defines “act” to be “a bodily movement, whether voluntary or
involuntary.” TEX. PENAL CODE ANN. § 1.07(a)(1). Section 1.07(a)(1) is not a defensive
issue. Id. Hernandez did not request that “act” be defined, nor did she object to its
omission.
Section 2.03(d) states that if a defensive issue is submitted to the jury, the jury
32

must be instructed that reasonable doubt on the issue requires the defendant be
acquitted. Id. § 2.03(d).
3. Discussion
Hernandez’s explanation for the injury to her baby is that she fell and accidentally
crushed the baby on the tile floor in the house and again outside.

Testimony of

Hernandez’s family and the defense expert supported her claim. Opposing testimony
was presented by Dr. Farley who opined that the baby’s injuries were a result of
substantial force that is greater than what could have come from the alleged falls. During
closing argument, the State argued:
I don’t believe the evidence supports reckless or negligent. In my opinion,
either she intentionally and knowingly did this and killed her child, or if you
want to believe from the evidence what the Defense says that it was an
accident, oh well, she slipped and she fell and that caused the injuries, or
well, it was a traumatic birth and that caused the injuries.
Well if that’s the case, then she wouldn’t be guilty of either of these because
she hasn’t ignored any risk. What risk would she have ignored? Stepping
on the slope there in the kitchen. It doesn’t work. . . . If it is an accident,
well then she is not guilty of a crime. It’s an accident. The baby died as
an accident. It was not intentional. It was not knowingly. She didn’t
ignore some risk. If it’s an accident, she’s not guilty if you want to believe
that. But I think the evidence shows otherwise.
Defense counsel argued reasonable doubt, traumatic birth injuries, and accident.
The jury was clearly aware from the State’s argument that guilt had to be premised on
action, not an accident. The definition of “act” that “is a bodily movement, whether
voluntary or involuntary, and includes speech” would not have enlightened the jury in the
circumstances here and we hold that no harm is shown from its omission. The trial court
did not abuse its discretion in failing to define “act.”
33

Because the omission of the

definition was not error, we do not consider harm. Ngo, 175 S.W.3d at 743.
Because Hernandez did not request any defensive issues, Hernandez was not
entitled to an instruction pursuant to section 2.03(d). We addressed section 6.01 in Part
V(B).
We overrule Hernandez’s seventh and eighth issues.
VI.

ADMISSION OF EXPERT TESTIMONY

Hernandez challenges the testimony of Dr. Farley on the grounds that “it fails to
meet requisite standards” by issue twenty-six and multiple subparts. 10

However,

defense counsel did not object to Dr. Farley’s testimony before or at trial.
“To preserve an issue for appellate review, a complainant must have made a timely
and specific objection, and the trial court must have ruled on the objection either expressly
or implicitly.” TEX. R. APP. P. 33.1(a); Everitt v. State, 407 S.W.3d 259, 262–63 (Tex.
Crim. App. 2013). The objection must be specific enough “to make the trial court aware
of the complaint.” Everitt, 407 S.W.3d at 263. Defense counsel did not preserve a
complaint regarding admission of Dr. Farley’s testimony. See Wilson v. State, 71 S.W.3d
346, 349 (Tex. Crim. App. 2002) (holding failure to timely object to testimony waived issue
on appeal); Brimage v. State, 918 S.W.2d 466, 504 (Tex. Crim. App. 1994) (holding that
failure to object to medical examiner’s response to objected-to question waived appellate
review); Croft v. State, 148 S.W.3d 533, 544 (Tex. App.—Houston [14th Dist.] 2004, no

10
Hernandez argues that Dr. Farley’s causation testimony: 1) was not based upon verifiable
medical facts, 2) did not address how the scientific method applies to her conclusions, 3) does not relate to
Hernandez’s mens rea, 4) does not prove the corpus delcti; 5) generally does not connect Hernandez to
any crime, 6) does not establish the voluntariness of Hernandez’s actions, and 7) does not address
concurrent causation.

34

pet.) (noting that failure to object to expert’s qualifications waives assertion of error on
appeal). We overrule Hernandez’s twenty-sixth issue.
VII.

SHERIFF’S FILE AND BRADY V. MARYLAND

During the motion for new trial proceedings, defense counsel subpoenaed the
records custodian for HCSO to the hearing with a duces tecum for the investigation file.
The State, without having the opportunity to review the subpoenaed file, objected to
release of the file based upon the family code and article 39.14. See TEX. CODE CRIM.
PROC. ANN. art. 39.14 (West, Westlaw through 2017 1st C.S.); TEX. FAM. CODE ANN. §
264.408 (West, Westlaw through 2017 1st C.S.). The trial court sustained the objection
and ordered the file sealed and turned over to the trial court. By issues twenty-eight,
twenty-nine, thirty, and thirty-one, Hernandez argues a violation of article 39.14 and Brady
v. Maryland. See TEX. CODE CRIM. PROC. ANN. art. 39.14; 373 U.S. 83 (1963).
A.

Standard of Review
Article 39.14 generally requires the State to turn over evidence upon request by

the defense with exceptions for materials protected by section 264.408 of the family code,
article 39.15 of the code of criminal procedure, and other privileged materials. See TEX.
CODE CRIM. PROC. ANN. arts. 39.14(a), 39.15 (West, Westlaw through 2017 1st C.S.); TEX.
FAM. CODE ANN. § 264.408; In re State ex rel. Skurka, 512 S.W.3d 444, 453 (Tex. App.—
Corpus Christi 2016, orig. proceeding) (noting article 39.14 sets out the scope of criminal
discovery). 11 To trigger the requirements of Article 39.14, a defendant must make a

11 Section 264.408 of the family code protects information gathered in a child abuse investigation
by the Children’s Advocacy Center and collected in any investigation into abuse or neglect. See TEX. FAM.
CODE ANN. § 264.408 (West, Westlaw through 2017 1st C.S.). To the extent that materials protected by
section 264.408 were included in the Sheriff’s file, the procedures in article 39.15 adequately protect a

35

timely request to the State that designates the items requested to be produced. Davy v.
State, 525 S.W.3d 745, 750 (Tex. App.—Amarillo 2017, pet. ref’d); Glover v. State, 496
S.W.3d 812, 815 (Tex. App.—Houston [14th Dist.] 2016, pet. ref’d). Absent such a
request, the State’s affirmative duty to disclose evidence extends only to exculpatory
information. See TEX. CODE CRIM. PROC. ANN. art. 39.14(h).
“[T]he Texas Legislature intended article 39.14 to constitute a comprehensive
pretrial discovery statute[] and that criminal discovery orders must fall within the confines
of that article’s limited authorization.” See State ex rel. Wade v. Stephens, 724 S.W.2d
141, 144 (Tex. App.—Dallas 1987, orig. proceeding); TEX. CODE CRIM. PROC. ANN. art.
39.14. A corollary is that trial courts lack inherent authority to order pretrial discovery
any greater than that authorized by article 39.14. State ex rel. Wade, 724 S.W.2d at
144.; Branum, 535 S.W.3d at 224; In re State ex. rel. Munk, 448 S.W.3d 687, 692 (Tex.
App.—Eastland 2014, orig. proceeding) (holding that trial court exceeded its authority in
ordering discovery broader than article 39.14 requirements); see also In re Hon, No. 09–
16–00301–CR, 2016 WL 6110797, at *2 (Tex. App.—Beaumont Oct. 19, 2016, orig.
proceeding) (mem. op., not designated for publication).
We review a trial court’s orders on discovery for an abuse of discretion. See
Horne v. State, 554 S.W.3d 809, 814–15 (Tex. App.—Waco 2018, pet ref’d) (applying
abuse of discretion standard to trial court’s resolution of discovery complaint); Branum v.
State, 535 S.W.3d 217, 224 (Tex. App.—Fort Worth 2017, no pet.); Davy, 525 S.W.3d at

defendant’s right to confrontation. See Gonzalez v. State, 522 S.W.3d 48, 64 (Tex. App.—Houston [1st
Dist.] 2017, no pet.); In re Fulguim, 150 S.W.3d 252, 255 (Tex. App.—Texarkana 2004, orig. proceeding)
(order preventing disclosure of protected records was not an abuse of discretion).

36

751.
B.

Article 39.14 and Exceptions
The trial court found that Hernandez’s subpoena was an improper end-run around

article 39.14 and denied Hernandez access to the HCSO file. Hernandez has not set
forth any basis for her claim that the State withheld materials to which article 39.14 applies
other than the statement from the assistant district attorney at the motion for new trial
hearing that “most of this has been turned [over] under 39.14 which is the exclusive
discovery method.”

The burden is on the defendant to demonstrate that the State

withheld materials that she was entitled to receive based upon her request for discovery
pursuant to article 39.14. See Horne, 554 S.W.3d at 814. Because Hernandez did not
meet her burden, the trial court did not abuse its discretion in denying her access to the
file. Id. at 815.
We overrule Hernandez’s twenty-eighth, twenty-ninth, and thirtieth issues.
C.

Brady v. Maryland
By her thirty-first issue, Hernandez argues that the State violated Brady by failing

to produce all of the information in the Sheriff’s file and by not allowing her appellate
counsel to review the file. See 373 U.S. at 87.
“[T]he suppression by the prosecution of evidence favorable to an accused upon
request violates due process where the evidence is material either to guilt or to
punishment, irrespective of the good faith or bad faith of the prosecution.” Id. To prevail
on a Brady claim, an appellant must show that the State’s nondisclosure or tardy
disclosure of material exculpatory evidence or evidence material to appellant’s guilt or
37

punishment prejudiced the defense. Little v. State, 991 S.W.2d 864, 867 (Tex. Crim.
App. 1999). “To show prejudice, an appellant must show a reasonable probability that
the result of the proceeding would have been different had the State timely disclosed the
evidence to the defense.” Id. at 866.
Because this burden is on Hernandez, who points to nothing of substance to
support her allegation, the trial court did not abuse its discretion in denying relief.
The Court overrules Hernandez’s thirty-first issue.
VIII.

MOTION FOR NEW TRIAL

By issues four, nine, eighteen, nineteen, twenty-three, twenty-four, twenty-five,
and twenty-seven, Hernandez attacks the trial court’s denial of her motion for new trial
based upon: 1) the trial court’s failure to charge the jury on the requirement of voluntary
conduct and related instructions; 2) the trial court’s exclusion of Juror L’s testimony12; 3)
trial counsels’ alleged ineffective assistance; and 4) the trial court’s findings of facts and
conclusions of law. We addressed the substance of several issues earlier in Parts II and
V(A).13
A.

Standard of Review
We review the trial court’s denial of a motion for new trial for abuse of discretion.

12 We do not include the juror’s name to preserve her privacy. See e.g., TEX. CODE CRIM. PROC.
ANN. art. 35.29 (West, Westlaw through 2017 1st C.S.).

As we analyzed in Part II, Hernandez’s convictions do not violate double jeopardy. As a result,
the trial court did not abuse its discretion by denying her motion for new trial on this ground. We overrule
Hernandez’s eighteenth issue.
13

In Part V(A), we held that the trial court was not required to charge the jury on the defensive issue
of voluntary conduct absent a request from defense counsel. Thus, the trial court did not abuse its
discretion in denying Hernandez’s motion for new trial on this ground. We overrule Hernandez’s
nineteenth issue.

38

McQuarrie v. State, 380 S.W.3d 145, 150 (Tex. Crim. App. 2012); Webb v. State, 232
S.W.3d 109, 112 (Tex. Crim. App. 2007). “Appellate courts view the evidence in the light
most favorable to the trial court’s ruling, defer to the court’s credibility determinations, and
presume that all reasonable fact findings in support of the ruling have been made.”
Thomas, 428 S.W.3d. at 104. “Thus, a trial court abuses its discretion in denying a
motion for new trial only when no reasonable view of the record could support the trial
court’s ruling.” Webb, 232 S.W.3d at 112.
“[T]rial courts do not have the discretion to grant a new trial unless the defendant
demonstrates that his first trial was seriously flawed and that the flaws adversely affected
his substantial rights to a fair trial.” State v. Herndon, 215 S.W.3d 901, 909 (Tex. Crim.
App. 2007); see also State v. Alaniz, No. 13-15-00554-CR, 2016 WL 6804459, at *5 (Tex.
App.—Corpus Christi Nov. 10, 2016, no pet.) (mem. op., not designated for publication)
(reversing the trial court’s erroneous grant of a new trial for insufficient evidence).
B.

Juror L’s Testimony
By issues twenty-three, twenty-four, and twenty-five, Hernandez challenges the

trial court’s exclusion of the evidence related to Juror L at the motion for new trial. At the
hearing on Hernandez’s motion for new trial, counsel attached an affidavit by Michael
Tuttle, one of Hernandez’s trial attorneys.

Tuttle’s affidavit referenced post-trial

conversations with jurors to support Hernandez’s claim of harm from the absence of an
instruction on voluntariness from the jury trial. The affidavit was offered as an exhibit at
the hearing. The State objected to the admission of the portion of the affidavit regarding
juror discussions on Rule 606 grounds. See TEX. R. EVID. 606. The trial court sustained
39

the objection.
Defense counsel called Juror L to testify. The State again objected on Rule 606
grounds and the trial court sustained the objection.

See id.

Defense counsel

questioned the juror as part of a bill of exception. The juror testified that an instruction
on voluntary act “probably” would have changed her verdict on both counts.
Rule 606 prohibits the testimony of a juror on the subject of the jury’s deliberations
with few exceptions. 14

Id.

“Courts ‘may not inquire as to the subjective thought

processes and reactions of the jury, so jurors should continue to feel free to raise and
discuss differing viewpoints without the fear of later public scrutiny.’” Romero v. State,
396 S.W.3d 136, 152 (Tex. App.—Houston [14th Dist.] 2013, pet. ref’d) (quoting
McQuarrie, 380 S.W.3d at 153).
Defense counsel argued to the trial court that Rule 606 did not apply because he
sought information regarding a hypothetical jury charge. For the juror to compare her
response to the hypothetical charge, she was required to use the jury’s actual discussions
and deliberations to reach her opinion.

As a result, defense counsel’s questioning

necessarily implicated the jury’s actual thought processes. The trial court did not abuse
its discretion by excluding this evidence at the motion for new trial hearing. We overrule
Hernandez’s twenty-third, twenty-fourth, and twenty-fifth issues.

14

Rule 606 states:

During an inquiry into the validity of a verdict or indictment, a juror may not testify about
any statement made or incident that occurred during the jury’s deliberations; the effect of
anything on that juror’s or another juror’s vote; or any juror’s mental processes concerning
the verdict or indictment. The court may not receive a juror’s affidavit or evidence of a
juror’s statement on these matters. . . .
TEX. R. EVID. 606 (b)(1).

40

C.

The Trial Court Denied Ineffective Assistance at Motion for New Trial
During the motion for new trial hearing, the trial court found that defense counsel

were not ineffective for failing to request that the trial court charge the jury on voluntary
conduct, define “act,” or object to the submission of the jury charge based upon
differences in the first name of the infant. We measure counsel’s performance by the
standard enunciated in Strickland v. Washington. 466 U.S. 668 (1984); Ex parte Garcia,
486 S.W.3d 565, 568 (Tex. Crim. App. 2016). “First, an applicant must demonstrate
deficient performance by showing that his attorney’s representation fell below an objective
standard of reasonableness, as judged by prevailing professional norms.” Garcia, 486
S.W.3d at 568–69 (citing Strickland, 466 U.S. at 690). In order to do so, an applicant
must overcome the strong presumption that counsel’s conduct was reasonable.
Strickland, 466 U.S. at 687. “There are countless ways to provide effective assistance
in any given case.

Even the best criminal defense attorneys would not defend a

particular client in the same way.” Id. at 689. The right to assistance of reasonably
effective counsel “does not mean errorless or perfect counsel whose competency of
representation is to be judged by hindsight.” Robertson v. State, 187 S.W.3d 475, 483
(Tex. Crim. App. 2006).
Second, an applicant must demonstrate prejudice by establishing that there is a
reasonable probability that, but for counsel’s errors, the result of the proceeding would
have been different.

Strickland, 466 U.S. at 694.

“A reasonable probability is a

probability sufficient to undermine confidence in the outcome” of the proceeding. Id.
“[A] court hearing an ineffectiveness claim must consider the totality of the evidence
41

before the judge or jury.” Id. at 696; Ex parte Martinez, 330 S.W.3d 891, 903–04 (Tex.
Crim. App. 2011). “Failure to make the required showing of either deficient performance
or sufficient prejudice defeats the ineffectiveness claim.” Strickland, 466 U.S. at 700.
Hernandez criticizes defense counsel for failing to request instructions on voluntary
conduct, a definition of “act,” and on the burden of proof for defensive issues pursuant to
sections 1.07(a)(1), 203(d), and 6.01. See TEX. PENAL CODE ANN. §§ 1.07(a)(1), 2.03(d),
6.01. Defense counsel tried this case on the theory that Hernandez fell twice which likely
caused her baby’s injuries or that her falls in combination with the delivery of the eightpound baby caused his injuries and death. They argued that the State failed to prove
that Hernandez acted with the requisite mens rea. Hernandez was not convicted of
capital murder and was not sentenced to mandatory life imprisonment. Instead, the jury
found her guilty of manslaughter and injury to a child.
Lead trial counsel Fernando Mancias had been a district judge, a prosecutor, and
a criminal defense lawyer for thirty-seven years. He testified that he cut his research
short after he learned that a claim of accident did not give him the right to a jury instruction,
and that he was not aware of the defense of involuntary conduct until post-trial.15
“[T]he trial court, as the finder of fact on a motion for new trial, retains the
prerogative to believe or disbelieve any evidence the probativeness of which depends on
the credibility of its source” even if the evidence is uncontroverted. Odelugo v. State,
443 S.W.3d 131, 138 (Tex. Crim. App. 2014).
The trial court found that counsel’s performance in defending Hernandez against

15

Defense counsel Tuttle testified similarly on this issue.

42

the capital murder charge was sufficient. The trial court further explained that he did not
find a reasonable probability that a jury instruction on voluntary conduct would have
resulted in a different verdict. He based his decision on his observation of the trial and
the jury’s conviction of manslaughter rather than capital murder. See Ex parte Martinez,
330 S.W.3d at 903–04.
Despite their testimony at the motion for new trial, Hernandez’s attorneys could
have reasonably believed that accident was an appropriate defense. Counsels’ alleged
failures regarding jury instructions and definitions did not fall below reasonable
professional assistance.

Furthermore, there was substantial evidence to support

Hernandez’s conviction.

Thus, the record before us does not persuade us that

Hernandez suffered prejudice from the alleged failures of her trial counsel on these
issues.
We hold that the trial court did not abuse its discretion by denying the motion for
new trial on grounds ineffective assistance of counsel for failure to raise the issue of
involuntary conduct and the associated definitions and instructions in the jury charge.
We overrule Hernandez’s issues four, nine, nineteen, and twenty-seven.
Hernandez next complains that her trial counsel provided ineffective assistance
during trial by failing to object to the jury charge’s omissions on count two regarding Jose
Lionel Jimenez. As harm from counsels’ omissions, she argues that a reversal for some
harm when error is preserved is an easier burden to carry than egregious harm when
error is not preserved. See Arline, 721 S.W.2d at 351.
We have reviewed the underlying issues using the Strickland framework. 466
43

U.S. at 689–90. Regarding counsel’s failure to object to the omission of Jose Lionel
Jimenez from the jury charge, we do not find harm. The correction of a name in the
indictment during trial is permissible pursuant to article 28.10(c). TEX. PENAL CODE ANN.
§ 28.10(c). There was only one child, the child to whom Hernandez gave birth, who was
injured and died the same day. Even if counsel’s failure to object fell below reasonable
standards of professional conduct (an issue we do not decide), Hernandez has not
demonstrated the required prejudice. See Ex parte Martinez, 330 S.W.3d at 903–04.
Accordingly, we overrule eighteen through twenty-two.
IX. CONCLUSION
We affirm the trial court’s judgment.

GINA M. BENAVIDES,
Justice
Do not publish.
TEX. R. APP. P. 47.2 (b).
Delivered and filed the
16th day of May, 2019.

44

APPENDIX B –
Letter Denying Motion for Rehearing

FILE COPY
NUECES COUNTY COURTHOUSE
901 LEOPARD, 10TH FLOOR
CORPUS CHRISTI, TEXAS 78401
361-888-0416 (TEL)
361-888-0794 (FAX)

CHIEF JUSTICE
DORI CONTRERAS
JUSTICES
GINA M. BENAVIDES
NORA L. LONGORIA
LETICIA HINOJOSA
GREGORY T. PERKES
JAIME TIJERINA
CLERK
DORIAN E. RAMIREZ

Court of Appeals
Thirteenth District of Texas

HIDALGO COUNTY
COURTHOUSE ANNEX III
100 E. CANO, 5TH FLOOR
EDINBURG, TEXAS 78539
956-318-2405 (TEL)
956-318-2403 (FAX)
www.txcourts.gov/13thcoa

October 23, 2019
Hon. Victoria Guerra
Law Office of Victoria Guerra
3219 N. McColl Blvd.
McAllen, TX 78501
* DELIVERED VIA E-MAIL *

Hon. Joseph A. Connors III
Attorney at Law
P. O. Box 5838
McAllen, TX 78502-5838
* DELIVERED VIA E-MAIL *

Hon. Michael W. Morris
Assistant Criminal District Attorney
100 N. Closner
Edinburg, TX 78539
* DELIVERED VIA E-MAIL *

Hon. Ricardo P. Rodriguez
Hidalgo County District Attorney
100 E. Cano
Edinburg, TX 78539
* DELIVERED VIA E-MAIL *

Hon. Mike Degeurin
Foreman, Degeurin & Degeurin
300 Main St., Fl. 3
Houston, TX 77002-1851
* DELIVERED VIA E-MAIL *
Re:
Style:

Cause No. 13-16-00696-CR
Tr.Ct.No. CR-0064-15-C
Sandy Perez Hernandez v. The State of Texas
Appellant’s motion for rehearing in the above cause was this day DENIED by this

Court.
Very truly yours,

Dorian E. Ramirez, Clerk

APPENDIX C –
Letter Denying Motion for En Banc Reconsideration

FILE COPY
NUECES COUNTY COURTHOUSE
901 LEOPARD, 10TH FLOOR
CORPUS CHRISTI, TEXAS 78401
361-888-0416 (TEL)
361-888-0794 (FAX)

CHIEF JUSTICE
DORI CONTRERAS
JUSTICES
GINA M. BENAVIDES
NORA L. LONGORIA
LETICIA HINOJOSA
GREGORY T. PERKES
JAIME TIJERINA
CLERK
DORIAN E. RAMIREZ

Court of Appeals
Thirteenth District of Texas

HIDALGO COUNTY
COURTHOUSE ANNEX III
100 E. CANO, 5TH FLOOR
EDINBURG, TEXAS 78539
956-318-2405 (TEL)
956-318-2403 (FAX)
www.txcourts.gov/13thcoa

November 20, 2019
Hon. Victoria Guerra
Law Office of Victoria Guerra
3219 N. McColl Blvd.
McAllen, TX 78501
* DELIVERED VIA E-MAIL *

Hon. Joseph A. Connors III
Attorney at Law
P. O. Box 5838
McAllen, TX 78502-5838
* DELIVERED VIA E-MAIL *

Hon. Michael W. Morris
Assistant Criminal District Attorney
100 N. Closner
Edinburg, TX 78539
* DELIVERED VIA E-MAIL *

Hon. Ricardo P. Rodriguez
Hidalgo County District Attorney
100 E. Cano
Edinburg, TX 78539
* DELIVERED VIA E-MAIL *

Hon. Mike Degeurin
Foreman, Degeurin & Degeurin
300 Main St., Fl. 3
Houston, TX 77002-1851
* DELIVERED VIA E-MAIL *
Re:
Style:

Cause No. 13-16-00696-CR
Tr.Ct.No. CR-0064-15-C
Sandy Perez Hernandez v. The State of Texas

Appellant’s motion for en banc reconsideration in the above cause was this day
DENIED by this Court.
Very truly yours,

Dorian E. Ramirez, Clerk

APPENDIX D –
Letter Refusing Petition for Discretionary Review

APPENDIX E –
Judgments of Conviction

,,
Case No. CR-0064-15-C (COUNT ONE)
TRN 9220296551 AOOl
THE STATE OF TEXAS
v.SANDY PEREZ
HERNANDEZ,
DEFENDANT
SID: TX 50587459

§
§
§

IN THE 139TH JUDICIAL
DISTRICT COURT OF
HIDALGO COUNTY, TEXAS

JUDGMENT OF CONVICTION BY JURY
& SENTENCE TO THE INSTITUTIONAL DIVISION OF
THE TEXAS DEPARTMENT OF CRIMINAL JUSTICE

3ff10Wbwc&f4< '£Jl(o

DATEOFJUDGMENT:
JUDGE PRESIDING: J.R. BOB YFLORES
COURT REPORTER: JESSE SALAZAR
ATTORNEY FOR THE STATE: ORLANDO J. ESQUIVEL and
CASSANDRA HERNANDEZ
ATTORNEY FOR THE DEFENDANT: FERNANDO MANCIAS and MICHAEL
TUTTLE
OFFENSE CODE: 09990017
OFFENSE: MANSLAUGHTER, A LESSER
INCLUDED OFFENSE
DATE OF OFFENSE: OCTOBER 17, 2014
DEGREE OF OFFENSE: SECOND DEGREE FELONY
STATUTE FOR OFFENSE: 19.04 PENAL CODE
APPLICABLE PUNISHMENT RANGE: 2-20 YEARS IN PRISON /MAX $10,000
(Including enhancements if any): FINE
CHARGING INSTRUMENT: INDICTMENT or INFORMATION
PLEA TO OFFENSE: NOT GUILTY
JURY VERDICT FOR OFFENSE: GUILTY
PUNISHMENT IMPOSED BY JURY: 20 YEARS IMPRISONMENT
PLACE OF IMPRISONMENT INSTITUTIONAL DIVISION OF THE
TEXAS DEPARTMENT OF CRIMINAL
JUSTICE
FINE: NONE
RESTITUTION: NONE
CREDIT FOR TIME SPENT INJAIL: 13DAYS
DISMISS: NONE
CONSIDER: NONE
PLEA TO ENHANCEMENT NONE
PARAGRAPH(S):
FINDING TO ENHANCEMENT: NONE
FINDING ON DEADLY WEAPON:
COURT COSTS:
DATE SENTENCE IMPOSED: SEPTEMBtR28, 2016

~ONE 9'(QC1. ~

Judgment of Conviction by Court & Sentence, Case No. CR-0064-15-C (COUNT ONE)

209

;-

0
On SEPTEMBER 13, 2016, the above numbered and entitled cause was regularly
reached and called for trial, and the State appeared by ORLANDO J. ESQUIVEL and
CASSANDRA HERNANDEZ, and the Defendant and the Defendant's attorney, FERNANDO
MANCIAS and MICHAEL TUT,TLE, were also present. Thereupon both sides announced
ready for trial, and the Defendant pleaded NOT GUILTY to the offense charged in the
indictment or information. A Jury was duly selected, impaneled and sworn. Having heard the
evidence submitted and having been duly charged by the Court, the Jury retired to consider
their verdict. Afterward, on SEPTEMBER 16, 2016, being brought into open court by the
proper officer, the Defendant, the Defendant's Attorney and the State's Attorney being present,
and being asked if the Jury had agreed upon a verdict, the Jury answered it had and returned to
the Court a verdict, which was read aloud, received by the Court, and is now entered upon the
minutes of the Court as follows:
We, the Jury, find the Defendant, SANDY PEREZ HERNANDEZ, GUILTY of the lesser
included offense of MANSLAUGHTER.

Thereupon, the Defendant having previously elected to have the punishment assessed
by the Jury, pleaded to the enhancement paragraphs, if any, as stated above, and the jury was
called back into the box and heard evidence related to the question of punishment. Thereafter,
the jury retired to consider such question and, after having deliberated, the jury was brought
back into open court by the proper officer, the Defendant, the Defendant's attorney, and the
State's attorney being present, and being asked if the jury had agreed upon a verdict, the jury
answered it had and returned to the Court a verdict, which was read aloud, received by the
Court, and is now entered upon the Minutes of the Court as follows:
We, the jury, having found the Defendant, SANDY PEREZ HERNANDEZ, guilty of the
offense of Manslaughter, assess punishment at imprisonment in the Institutional Division of the
Texas Department of Criminal Justice for term of 20 years.

A pre-sentence investigation report WAS NOT DONE according to Article 42.12, Sec.
9,CCP.
And thereupon on SEPTEMBER 28, 2016, the Court then asked the Defendant
whether the Defendant had anything to say why the sentence should not be pronpunced upon
Defendant, and the Defendant having answered nothing in bar thereof, the Court proceeded to
pronounce sentence upon Defendant.
It is therefore ORDERED, ADJUDGED and DECREED by the Court that the

Defendant is guilty of the offense of MANSLAUGHTER, A LESSER INCLUDED
OFFENSE, SECOND DEGREE FELONY, committed on OCTOBER 17, 2014; that the
punishment is fixed at 20 YEARS in the INSTITUTIONAL DIVISION OF THE TEXAS
DEPARTMENT OF CRIMINAL JUSTICE and a Fine of NONE; and that the State of
Texas do have and recover of the Defendant all court costs in this prosecution expended, for
which execution will issue.
It is further ORDERED by the Court that the Defendant be taken by the authorized
agent of the State of Texas or by the Sheriff of Hidalgo County, Texas, and be safely conveyed
and delivered to the Director of the Institutional Division of the Texas Department of Criminal
Justice, there to be confined in the manner and for the period aforesaid, and the Defendant is
hereby remanded to the custody of the Sheriff of Hidalgo County, Texas, until such time as the
Sheriff can obey the directions of this sentence.
Judgment of Conviction by Court & Sentence, Case No. CR-0064-15-C (COUNT ONE)

210

Furthermore, the following special findings or orders apply:

The Court, upon the State's motion, DISMISSED the following count, case or
complaint: NONE.
The Court, upon the Defendant's request and the State's consent, CONSIDERED as an
admitted unadjudicated offense the following count, case or complaint: NONE.
The Court finds that the
specified.

sent~nce

imposed or suspended shall run concurrent unless otherwise

The Court finds that the Defendant shall be credited with 13 DAYS on his sentence for
time spent in jail in this cause.

Jtl
D~74J~

Receipt is hereby acknowledged on the date shown ab

& '""""·

JM
I

Defendant's right thumbprint

Judgment of Conviction by Court & Sentence, Case No. CR-0064-15-C (COUNT ONE)

211

0

\

Case No. CR-0064-15-C (COUNT TWO)
TRN 9220296551 DOOl
THE STATE OF TEXAS
v. SANDY PEREZ
HERNANDEZ,
DEFENDANT
SID: TX 50587459

§
§
§

IN THE 139TH JUDICIAL
DISTRICT COURT OF
HIDALGO COUNTY, TEXAS

JUDGMENT OF CONVICTION BY JURY
& SENTENCE TO THE INSTITUTIONAL DIVISION OF
THE TEXAS DEPARTMENT OF CRIMINAL JUSTICE

~~k z~, 'dJlb

DATE OF JUDGMENT:
JUDGE PRESIDING: J.RioliY FLORES
COURT REPORTER: JESSE SALAZAR
ATTORNEY FOR THE STATE: ORLANDO J. ESQUIVEL and
CASSANDRA HERNANDEZ
ATTORNEY FOR THE DEFENDANT: FERNANDO MANCIAS and MICHAEL
TUTTLE
OFFENSE CODE: 13990041
OFFENSE: INJURY TO A CHILD CAUSING
SERIOUS BODILY INJURY, AS
CHARGED IN THE INDICTMENT
DATE OF OFFENSE: OCTOBER 17, 2014
DEGREE OF OFFENSE: FIRST DEGREE FELONY
STATUTE FOR OFFENSE: 22.04 (e) PENAL CODE
APPLICABLE PUNISHMENT RANGE: LIFE OR 5-99 YEARS IN PRISON/MAX
(Including enhancements if any): $10,000 FINE
CHARGING INSTRUMENT: INDICTMENT or INFORMATION
PLEA TO OFFENSE: NOT GUILTY
JURY VERDICT FOR OFFENSE: GUILTY
PUNISHMENT IMPOSED BY JURY: 32 YEARS IMPRISONMENT
PLACE OF IMPRISONMENT INSTITUTIONAL DIVISION OF THE
TEXAS DEPARTMENT OF CRIMINAL
JUSTICE
FINE: NONE
RESTITUTION: NONE
CREDIT FOR TIME SPENT IN JAIL: 13DAYS
DISMISS: NONE
CONSIDER: NONE
PLEA TO ENHANCEMENT NONE
PARAGRAPH(S):
FINDING TO ENHANCEMENT: NONE
FINDING ON DEADLY WEAPON: NONE
COURT COSTS: NONE
DATE SENTENCE IMPOSED: SEPTEMBER 28, 2016
Judgment of Conviction by Court & Sentence, Case No. CR-0064-15-C (COUNT TWO)

212

0
On SEPTEMBER 13, 2016, the above numbered and entitled cause was regularly
reached and called for trial, and the State appeared by ORLANDO J. ESQUIVEL and
CASSANDRA HERNANDEZ, and the Defendant and the Defendant's attorney, FERNANDO
MANCIAS and MICHAEL TUTTLE, were also present. Thereupon both sides announced
ready for trial, and the Defendant pleaded NOT GUILTY to the offense charged in the
indictment or information. A Jury was duly selected, impaneled and sworn. Having heard the
evidence submitted and having been duly charged by the Court, the Jury retired to consider
their verdict. Afterward, on SEPTEMBER 16, 2016, being brought into open court by the
proper officer, the Defendant, the Defendant's Attorney and the State's Attorney being present,
and being asked if the Jury had agreed upon a verdict, the Jury answered it had and returned to
the Court a verdict, which was read aloud, received by the Court, and is now entered upon the
minutes of the Court as follows:
We, the Jury, find the Defendant, SANDY PEREZ HERNANDEZ, GUILTY of the
offense of INJURY TO A CHILD as charged in the indictment.
Thereupon, the Defendant having previously elected to have the punishment assessed
by the Jury, pleaded to the enhancement paragraphs, if any, as stated above, and the jury was
called back into the box and heard evidence related to the question of punishment. Thereafter,
the jury retired to consider such question and, after having deliberated, the jury was brought
back into open court by the proper officer, the Defendant, the Defendant's attorney, and the
State's attorney being present, and being asked if the jury had agreed upon a verdict, the jury
answered it had and returned to the Court a verdict, which was read aloud, received by the
Court, and is now entered upon the Minutes of the Court as follows:
We, the jnry, having found the Defendant, SANDY PEREZ HERNANDEZ, guilty of the
offense of Injury to a Child Causing Serious Bodily Injury, assess punishment at imprisonment in
the Institutional Division of the Texas Department of Criminal Justice for a term of 32 years.
A pre-sentence investigation report WAS NOT DONE according to Article 42.12, Sec.
9,CCP.
And thereupon on SEPTEMBER 28, 2016, the Court then asked the Defendant
whether the Defendant had anything to say why the sentence should not be pronounced upon
Defendant, and the Defendant having answered nothing in bar thereof, the Court proceeded to
pronounce sentence upon Defendant.
It is therefore ORDERED, ADJUDGED and DECREED by the Court that the
Defendant is guilty of the offense of INJURY TO A CHILD CAUSING SERIOUS
BODILY INJURY, AS CHARGED IN THE INDICTMENT, FIRST DEGREE
FELONY, committed on OCTOBER 17, 2014; that the punishment is fixed at 32 YEARS in
the INSTITUTIONAL DIVISION OF THE TEXAS DEPARTMENT OF CRIMINAL
JUSTICE and a Fine of NONE; and that the State of Texas do have and recover of the
Defendant all court costs in this prosecution expended, for which execution will issue.
It is further ORDERED by the Court that the Defendant be taken by the authorized
agent of the State of Texas or by the Sheriff of Hidalgo County, Texas, and be safely conveyed
and delivered to the Director of the Institutional Division of the Texas Department of Criminal
Justice, there to be confined in the manner and for the period aforesaid, and the Defendant is
hereby remanded to the custody of the Sheriff of Hidalgo County, Texas, until such time as the
Sheriff can obey the directions of this sentence.
Judgment of Conviction by Court & Sentence, Case No. CR-0064-15-C (COUNT TWO)

213

Furthermore, the following special findings or orders apply:

The Court, upon the State's motion, DISMISSED the following count, case or
complaint: NONE.
The Court, upon the Defendant's request and the State's consent, CONSIDERED as an
admitted unadjudicated offense the following count, case or complaint: NONE.
The Court finds that the sentence imposed or suspended shall run concurrent unless otherwise
specified.

The Court finds that the Defendant shall be credited with 13 DAYS on his sentence for
time spent in jail in this cause.
The Court finds the Defendant owes NONE for the Fine, NONE in restitution, NONE
in court costs. The Defendant shall make restitution, if any, within five (5) years after the end
of the term of imprisonmen~osed.
Signed on

the~ day o_""'"_....'· ,,,.....,ovuv•"'""'

Receipt is hereby acknowledged on the date shown

of one copy of this Judgment

:~~d-£~
JM

Defendant's right thumbprint

Judgment of Conviction by Court & Sentence, Case No. CR-0064-15-C (COUNT TWO)

214

Docket No. ________________
____________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
____________________________________________
SANDY PEREZ HERNANDEZ,
PETITIONER,
-VTHE STATE OF TEXAS,

RESPONDENT.

On petition for writ of certiorari from the
Texas Court of Criminal Appeals

____________________________________________
APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
VOL. 2 OF 2

____________________________________________

Mr. Mike DeGeurin
Attorney for Sandy Perez Hernandez
300 Main Street, Suite 300
Houston, Texas
Phone: 713-655-9000
Fax: 713-655-1812
mike@fddlaw.net

TABLE OF CONTENTS
VOL. 1 OF 2
APPENDIX A –

Memorandum Opinion from the Texas 13th Court of Appeals

APPENDIX B –

Letter Denying Motion for Rehearing

APPENDIX C –

Letter Denying Motion for En Banc Reconsideration

APPENDIX D –

Letter Refusing Petition for Discretionary Review

APPENDIX E –

Judgments of Conviction
VOL. 2 OF 2

APPENDIX F –

Charge to the Jury

APPENDIX G –

Affidavit of Trial Attorney Fernando Mancias

APPENDIX H –

Affidavit of Trial Attorney Michael Tuttle

APPENDIX I –

Testimony Excerpts of Attorney Fernando Mancias

APPENDIX J –

Testimony Excerpts of Attorney Michael Tuttle

APPENDIX I –

Testimony Excerpts of Juror L

APPENDIX F –
Charge to the Jury

169

170

171

172

173

174

175

176

177

178

179

180

181

182

183

184

185

186

APPENDIX G –
Affidavit of Trial Attorney Fernando Mancias

THE STATE OF TEXAS

§

COUNTY OF HIDALGO

§

AFFIDAVIT

BEFORE ME, the undersigned authority, personally appeared FERNANDO MANCIAS,
who after being duly sworn, said:
"My name is Fernando Mancias. I attended and graduated from Washington and Lee
University's law school in Lexington, Virginia. I have been licensed to practice law by the Texas
Supreme Court since 1979. Presently I maintain my law office in Edinburg, Texas. For many years,
I have been involved as lead or assisting counsel in a number of major civil and criminal cases.
I was hired by Ms. Sandy Perez Hernandez's family to be her attorney prior to the grand
jury's returning the indictment in cause number CR-0064-15-C charging Ms. Hernandez with the
offenses of Capital Murder in count one and Serious Bodily Injury to a Child in count two.
Later attorney Michael Tuttle was hired to assist me in final trial preparations and during
trial. The trial of this cause occurred during the period of time of September 13, 2016 to September
22, 2016. In my preparation for trial, I tried to research all possible defenses that might be available
in the trial of this cause, including the possible defense of"accident." But I learned that "accident"
was not a defense to the crimes with which Ms. Hernandez was charged and that no jury instruction
could be had on the law of "accident." I stopped looking for that type of defense at that point prior
to trial.
After Ms. Hernandez's sentencing, I recommended to her family that they hire Mr. Joseph
A. Connors III to represent Sandy Perez Hernandez during the appeal process and litigating a

motion for new trial.

MANCIAS Fernando AFFIDAVIT 7

r age I or 7

After her family did hire Mr. Connors, he set up a meeting with me and his co-counsel
Victoria Guerra. During our initial meeting, I became aware of the concept of "involuntary
conduct" and I read Texas Penal Code Section 6.0l(a), which reads: "A person commits an offense
only ifhe voluntarily engages in conduct, including an act, an omission, or possession. 11 Only then
did I quickly comprehend that if I had used that statutory defense of involuntary conduct under
Section 6.01 duringjury selection, the Court's Charge conference and final arguments, that legal
defense would have been of much benefit to the jury probably accepting the factual defense, which
I and my co-counsel Michael Tuttle had presented to the jury on behalf of Ms. Hernandez in this
cause. From Connors and Guerra, I first learned after formal sentencing, that I should have
objected to the court's charge by requesting a 6.01 instruction and its specific factual application
to each offense presented to the jury so the jury could determine if the State had beyond a
reasonable doubt disproven the defense of involuntary conduct as is required by Texas Penal Code
Section 2.03.
Mr. Connors later called my attention to this part of the opinion in George v. State, 681
S. W.2d 43, 45 (Tex. Crim. App. 1984):
In Williams v. State, 630 S.W.2d 640 (Tex.Cr.App. 1982) this Court found that "there is
no law and defense of accident in the present penal code," but it further discerned that the
Legislature had not jettisoned the notion.
The function of the former defense of accident is performed now by the requirement of
V.T.C.A. Penal Code, Section 6.0l(a), that, 11 A person commits an offense if he voluntarily
engages in conduct ... 11 Dockery v. State, 542 S.W.2d 644, 649-650 (Tex.Cr.App. 1976). If the
issue is raised by the evidence, a jury may be charged that a defendant should be acquitted ifthere

MANCIAS Fernando AFFIDAVIT 7

Page 2 of 7

is a reasonable doubt as to whether he voluntarily engaged in the conduct of which he is accused.
Id., at 644.
However, the Court found that overruling an objection to the charge in that respect was not
error since 11there was no evidence that the appellant did not voluntarily engage in the conduct
which injured the complainant; he merely said he did not intend the resulting injuries. 11 Ibid.
By its ellipsis of the remaining underscored language of Section 6.0l(a), obviously the
Williams opinion focused on the meaning of "voluntarily" engaging in conduct rather than
examining the meaning of 11conduct11 as used in the penal code. Thus, while instructive on the
matter of 11voluntariness," Williams alone will not solve our problem.
Mr. Connors and Ms. Guerra also called my attention to these words in Rogers v. State,
105 S.W.3d 630, 638-639 (Tex. Crim. App. 2003):
"Voluntariness," within the meaning of Section 6.0l(a), refers only to one1s own physical
body movements. If those physical movements are the nonvolitional result of someone else1s act,
are set in motion by some independent non-human force, are caused by a physical reflex or
convulsion, or are the product of unconsciousness, hypnosis or other nonvolitional impetus, that
movement is not voluntary. The word "accident,1' however, is a word of many meanings which
covers a wide spectrum of possibilities. It generally means "a happening that is not expected,
foreseen, or intended." Its synonyms include [*639] "chance, mishap, mischance, and misfortune."
It includes, but certainly is not limited to, unintended bodily movements. But at least since this
Court1s decision in Williams, the word 11 accident11 has not been used to refer to an 11 involuntary act11
under Section 6.0l(a).

MANCIAS Fernando AFFIDAVIT 7

Pnge3or7

During the trial, some evidence was presented to the jury that Ms. Hernandez slipped or
fell with the baby in her arms soon after she had delivered the baby without help from anyone else.
The evidence revealed that later Ms. Hernandez was experiencing a great deal of pain from the
delivery of her baby and her placenta. While undergoing the pain of delivering her placenta, Ms.
Hernandez dropped her baby outside her home. After her sentencing, I became aware that Ms.
Hernandez' acts of slipping or falling with the baby and I or dropping the baby was not considered
voluntary conduct under governing Texas law.
Ms. Hernandez's case is similar to the facts of Sparks v. State, 68 S.W.3d 6 (Tex. App.Dallas 200 l, pet. ref d). In Sparks, the court of appeals held it was error to deny a charge on the
voluntariness of the defendant's conduct when trial evidence established that the defendant,
carrying a sack of weights, tripped causing himself to fall and strike the child with his elbow.
Having first reviewed Section 6.0 l after sentencing in this cause, it is my opinion that the
evidence before the jury showed the acts of Ms. Hernandez falling or slipping inside with the baby
in her arms soon after she delivered the baby, and of dropping the baby during the delivery of her
placenta outside the home soon as or after she delivered the placenta, fits within the legal concept
and definition of "involuntary" or "not voluntary." I discussed Ms. Hernandez's involuntary acts
with the jury during argument, but did not request an instruction and charge under 6.01. Although
Ms. Hernandez's acts seemed "accidental," accident is not a defense in Texas. During her trial, I
did not know of any legal defense to use to characterize her acts of falling, slipping, and / or
dropping so I could get the jury to decide Ms. Hernandez was not guilty of the death of her baby
due to her involuntary conduct.

MANCIAS Fernando AFFIDAVIT 7

Page 4 of7

If I had been aware during Ms. Hernandez's trial that I could have objected to the court's
charge by requesting a 6.01 jury instruction and charge on the defense of involuntary conduct, I
am confident that the outcome of the trial would have been more favorable to Ms. Herandez. Now
that I know of this 6.01 defense, I am of the opinion that a properly instructed jury could have
found that the State did not prove beyond a reasonable doubt that Sandy Perez Hernandez' conduct
of falling or slipping with the baby, or dropping the baby during the delivery of the placenta was
voluntary conduct. An impartial jury should have been given the option to so decide.
During jury trial, neither Mr. Tuttle nor I objected to omission from the court's charge of
the law under Sections 2.03 and 6.01, I now know that one of us should have so objected. We had
a duty to so object to preserve Ms. Hernandez' U.S. constitutional Sixth Amendment right to obtain
a true verdict from an impartial jury after deliberations of the defense evidence presented under
Holmes v. South Carolina, 547 U.S. 319 (2006). I had no strategy at all for not objecting to the
court's charge and for not requesting an instruction and charge under 6.01. The jury should have,
but was not given the opportunity to decide whether Ms. Hernandez's acts of slipping and falling
with the baby or dropping the baby were involuntary acts or whether these acts caused each of the
injuries found on her baby resulting in his death in the hospital on October 17, 2014.
In conclusion, I acknowledge that my failure to object to the Court Charge's failure to set
out and to apply the law of the defense of involuntary conduct to the facts of the case resulted in
serious injury to the fundamental substantial rights of the defendant to an impartial trial by jury,
and impinged on the jury's ability to render an impartial verdict, deprived the jury of
the opportunity to evaluate the evidence as it related to the defense of involuntary conduct; and
my failure deprived defendant Hernandez of a neutral and unbiased application of the law, leaving

MANCIAS Fernando AFFIDAVIT 7

Page 5 of7

that function to the partisan advocacy of the opposing counsel in argument without any judicial
governing directives. I am reminded of the reversals of the trial courts' judgments in Beggs v.
State, 597 S.W.2d 375, 379 (Tex. Crim. App. 1980) (holding that a general instruction on a
defensive issue is not enough, for the defendant is entitled to a converse instruction in an
application paragraph that applies the law to the facts in the instruction on the defense of mistake
of fact); Ex parte Zepeda, 819 S.W.2d 874 (Tex. Crim. App. 1991) (finding that the non-strategic
failure to request a jury charge constituted ineffective assistance of counsel where the only
evidence connecting defendant to the crime was from the accomplice witness); Green v. State, 899
S.W.2d 245, 249 (Tex. App.---San Antonio 1995, no pet.) (holding that failure of defense counsel
to ask for the mistake of fact instruction and to apply it to the law of the case demands reversal of
the conviction); Waddell v. State, 918 S.W.2d 91, 94-95 (Tex. App.---Austin 1996, no pet.)
(defense counsel's failure to request an instruction on criminal trespass in a burglary of a building
prosecution constituted ineffective assistance of counsel).
Mr. Tuttle and I believed before and during the jury trial that Ms. Hernandez' conduct was
the factual result of "involuntary conduct." After sentencing, we became aware that section 6.01
may operate as a defense to both counts in the court's charge so the jury must determine that
defense under the procedures set out in section 2.03. Mr. Tuttle and I were each unaware until
after sentencing, that based on the evidence presented in her case, Ms. Hernandez had a right under
Texas law to request that her jury be instructed by the district court that she should be acquitted
unless the jury could determine beyond a reasonable doubt that her conduct, which resulted, if it
did, in death and/or serious bodily injury to her child, was voluntary, since no crime occurred when
the alleged injury and/or death resulted from Ms. Hernandez's involuntary conduct. We had no

MANCIAS Fernando AFFIDAVIT 7

Page 6 of7

strategy in failing to use this crucial section 6.0 I defense prior to and after the commencement of
the jury trial, except our unawareness of the defense.
Finally, on Count II, the Court Charge to the jury failed to track the exact language of the
indictment in its paragraphs 2 and 3. During the trial, I had no strategy for failing to object to
count II of the court's charge which in effect amended and altered the indictment by omitting
"Jose," though "Jose" was named as the child in its paragraphs two and three of the indictment.
Mr. Tuttle and I never discussed any reason for not objecting to that omission of "Jose" from the
application paragraph in or from the other parts of the Court's Charge on Count IL I am aware
that the "nature and cause of the accusation" and due process clauses of Amendments VI and XIV,
U.S. Const., guaranteed pretrial notice to Ms. Hernandez of the criminal charges she was being
prosecuted for. I am also aware of the "nature and cause of the accusation against" her clause
contained in Article I, Section 10, Tex. Const. During her trial, I had no strategy for waiving those
federal and state constitutional guaranteed rights of Ms. Hernandez. Neither Mr. Tuttle nor I
discussed with her any such waiver of those federal or state constitutional rights listed above or
why such waiver was advantageous or disadvantageous to her defense to the charges prosecuted
against her in cause number in cause number CR-0064-15-C. Ms. Hernandez did not know that
we, her attorneys, had waived those state and federal constitutional rights of her by our own failing
to object to the omission of "Jose" from the courts charge's incorporation in its application
paragraph of the grand jury indictment's count II allegations of "Jose" in its paragraphs two and
three. That variance ought not to have occurred. Mr. Tuttle and I missed it. Although I did urge
a Motion for Instructed Verdict on the grounds that the State of Texas had not proven all elements
beyond a reasonable doubt."

MANCIAS Fernando AFFIDAVIT 7

Page 7 or7

Sworn to and subscribed by FERNANDO MANCIAS before me the undersigned authority,
today, October 28, 2016.

~,
JANESAI.AS
~ j MY COMMISSION EXPIRES

~~

Novamber12,2018

'

MANCIAS Fernando AFFIDAVIT 7

Page 8 of8

APPENDIX H –
Affidavit of Trial Attorney Michael Tuttle

THE STATE OF TEXAS

§

AFFIDAVIT
COUNTY OF HIDALGO

§

BEFORE ME, the undersigned authority, personally appeared MICHAEL TUTTLE, who
after being duly sworn, said:
My name is Michael Tuttle. I attended and graduated from Texas Tech University in
2002. I have been licensed to practice law by the Texas Supreme Court since 2002. I have my
law office at 127 N. Alamo Road, Alamo, Hidalgo County, Texas 78516.
I have read the affidavit signed on October 28, 2016, by attorney Fernando Mancias
regarding our client Sandy Perez Hernandez. To my knowledge, all contained in that affidavit is
true and correct.
I have participated in more than 15 trials that went to jury verdict. Based on my
knowledge and experience, it is my professional and experienced opinion that on Counts I and II
in cause no. CR-0064-15-C, the jury would have returned different verdicts at the not guilty
phase, if the Court Charge had instructed the jury on the principles contained in Texas Penal
Code Sections 2.03 and 6.01 and the relevant case law.
As to Count I if the Court Charge had properly incorporated those Penal Sections. the
trial court would have instructed that the jury was required to acquit Defendant Hernandez,
unless the jury found that the evidence proved beyond a reasonable doubt that the State had
disproved that the charged death caused to the child was not the result of the involuntary conduct
of Sandy Perez Hernandez.
As to Count II if the Court Charge had properly incorporated those Penal Sections, the
trial court would have instructed that the jury was required to acquit Defendant Hernandez,
unless the jury found that the evidence proved beyond a reasonable doubt that the State had

TUTTLE, Michael -Affidavit

Page 1 of 2

I

disproved that the charged serious bodily injury caused to the child was not the result of the
involuntary conduct of Sandy Perez Hernandez.

__Q_Q~
Affiant Michael Tuttle
Sworn to and subscribed by MICHAEL TUTTLE before me the undersigned authority,
today, October 28, 2016.

TUTTLE, Michael-Affidavit

Page 2 of2

,. '
THE STATE OF TEXAS

§

AFFIDAVIT
COUNTY OF HIDALGO

§

BEFORE ME, the undersigned authority, personally appeared MICHAEL TUTTLE, who
after being duly sworn, said:
My name is Michael Tuttle. I attended and graduated from Texas Tech University in
2002. I have been licensed to practice law by the Texas Supreme Court since 2002. I have my
law office at 127 N. Alamo Road, Alamo, Hidalgo County, Texas 78516.
I have read the affidavit signed on October 28, 2016, by attorney Fernando Mancias
regarding our client Sandy Perez Hernandez. To my knowledge, all contained in that affidavit is
true and correct.
I have participated in more than 15 trials that went to jury verdict. Based on my
knowledge and experience, it is my professional and experienced opinion that on Counts I and II
in cause no. CR-0064-15-C, the jury would have returned different verdicts at the not guilty
phase, if the Court Charge had instructed the jury on the principles contained in Texas Penal
Code Sections 2.03 and 6.01 and the relevant case law.
As to Count I if the Court Charge had properly incorporated those Penal Sections, the
trial court would have instructed that the jury was required to acquit Defendant Hernandez,
unless the jury found that the evidence proved beyond a reasonable doubt that the State had
disproved that the charged death caused to the child was not the result of the involuntary conduct
of Sandy Perez Hernandez.
As to Count II if the Court Charge had properly incorporated those Penal Sections, the
trial court would have instructed that the jury was required to acquit Defendant Hernandez,
unless the jury found that the evidence proved beyond a reasonable doubt that the State had

TUTTLE, Michael -Affidavit

Page 1 of 2

...
disproved that the charged serious bodily injury caused to the child was not the result of the
involuntary conduct of Sandy Perez Hernandez.
After the sentencing of Sandy Perez Hernandez on September 28, 2016, I had the
opportunity to speak to seven of the above case's twelve serving jurors. During that post-trial
investigation, I discussed with each of those jurors the concepts of the section 6.01 defense of
involuntary conduct as applied under section 2.03 to the facts of Ms. Hernandez' case. I learned
that most of those jurors believed that knowledge of the defense of involuntary conduct in the
Court Charges would have made a difference in their deliberations. I also found one juror, who
in effect said that had the jury been instructed by the court on the defense of involuntary conduct
and that the jury would have rendered a different verdict in her favor. In other words, I
interpreted her response to mean that there would have been different jury verdicts if the Court
Charge had instructed that the jury must acquit defendant Sandy Perez Hernandez of each
offense under deliberation, unless the jury found beyond a reasonable doubt that the State had
disproved that the charged serious bodily injury caused to the child or his death was not the
result of the involuntary conduct of Sandy Perez Hernandez.

~

.JL12c~
Affiant Michael Tuttle

Sworn to and subscribed by MICHAEL TUTTLE before me the undersigned authority,
today, October 28, 2016.

TUTTLE, Michael - Affidavit

Page 2 of 2

APPENDIX I –
Testimony Excerpts of Attorney Fernando Mancias

17
1

MR. ESQUIVEL:

2

THE COURT:

3

You are going to invoke the Rule or

what?

4

MR. MORRIS:

5

THE COURT:

6

MR. MORRIS:

7

THE COURT:

8

MR. CONNORS:

9

MS. GUERRA:

10

No, I mean --

No, Judge.
Yes?
No, Judge.
Okay.

Go ahead.

Thank you.
Your Honor, I will be handling this

direct examination of Mr. Mancias.

11

May I approach the witness?

12

THE COURT:

13

Yes.

FERNANDO MANCIAS,

14

having been duly sworn, testified upon his oath, as follows,

15

to-wit:

16
17
18

DIRECT EXAMINATION
BY MS. GUERRA:
Q.

Mr. Mancias, I'm going to hand you what's been marked

19

as Defendant's Exhibit 2.

20

have you seen that before?

And just for identification purposes,

21

A.

I have, yes, ma'am.

22

Q.

Is that your signature on it?

23

A.

Yes, it is.

24

Q.

Okay.

25

And is everything stated in that affidavit --

would you identify it for the record, please.

JESSIE C. SALAZAR, Texas CSR #4286
139th Judicial District Court § Hidalgo County, T E X A S

18
1
2
3
4
5

A.

This is an affidavit that I signed back on October 28

of 2016.
Q.

And is everything stated in your affidavit true and

correct?
A.

6

Yes, ma'am.
MS. GUERRA:

7

this to the State.

8

evidence.

9

We would ask that it be admitted into

MR. MORRIS:

10
11

Your Honor, we had previously showed

No objection, Your Honor.

THE COURT:

You have him here live.

Why do you

want to admit that affidavit?

12

MS. GUERRA:

It's going to go faster if it's

13

admitted, Your Honor.

The testimony that we're going to present

14

by Mr. Mancias will go faster now that this is admitted.

15

have very few questions now that it's admitted.

16

THE COURT:

17

MR. MORRIS:

18

THE COURT:

19

(Defendant's Exhibit No. 2 admitted into

20

You have any objection?
No, Judge.
It's admitted into evidence.

evidence.)

21
22

MS. GUERRA:

Okay.

If I may have a minute to

label it, Judge?

23

MR. CONNORS:

24

MS. GUERRA:

25

I will

Q.

(BY MS. GUERRA)

It is labeled.
Okay.

It's labeled.

Mr. Mancias, did you ever file a

JESSIE C. SALAZAR, Texas CSR #4286
139th Judicial District Court § Hidalgo County, T E X A S

19
1

Motion for New Trial in this cause?

2

A.

No, ma'am.

3

Q.

Okay.

After the guilty verdict was rendered by the

4

jury, you filed a motion pertaining to inconsistent verdicts,

5

correct?

6

A.

Yes, I did.

7

Q.

Was that your intent to make that a Motion for New

8

Trial?

9

A.

No.

10

Q.

Now, during the course, Mr. Connors and I were talking

11

to you about the trial and the course of you representing Ms.

12

Hernandez, you learned an issue about voluntary conduct under

13

601, 6.01 of the Texas Penal Code, correct?

14

A.

Yes, ma'am.

15

Q.

And you did not pursue -- address, pursue, study or

16

request that it be submitted to -- in the jury charge, correct,

17

as an instruction or as an issue, correct?

18

A.

That's correct.

19

Q.

And why would you not have asked for that to be

20

submitted to the jury in the charge as an issue and as a

21

designated instruction?

22

A.

Early on in the case when I first represented Ms.

23

Sandy Hernandez, we had been in meetings with her.

And our

24

theory in this case was that this was going to be a case

25

involving an accident, no intentional conduct on behalf of Ms.

JESSIE C. SALAZAR, Texas CSR #4286
139th Judicial District Court § Hidalgo County, T E X A S

20
1

Sandy Hernandez.

2

about four or five years.

3

seminar written by an attorney and it has all the defenses that

4

you can look at that may apply to criminal cases.

5

And I have an article that I have had for
It's an article from a criminal law

I looked at the article and I learned from the

6

article that under accident I would not be entitled to an

7

instruction on accident.

8
9
10
11

Q.

Okay.

And that's where I ended my research.

And so you didn't -- that article doesn't say

anything about involuntary conduct -- voluntary conduct under
6.01 of the Penal Code?
A.

I don't recall if it did or not, but I stopped my

12

research when I realized that accident was not a permissible

13

instruction anymore.

14
15

Q.

Okay.

And you were not aware that voluntary conduct

under 6.01 of the Penal Code was a defense, correct?

16

A.

No.

17

Q.

So as a result of not knowing that it was a defense,

18

you had no strategy for failing to have it submitted to the jury

19

as an instruction, or a jury charge?

20

A.

That is correct.

That is correct.

21

Q.

And in the other issue, Mr. Mancias, is that the

22

language contained in the -- in the charge did not exactly track

23

the language in the indictment, correct?

24
25

Specifically, we're talking about -specifically, we're talking about Count Two, Paragraphs 2 and 3,

JESSIE C. SALAZAR, Texas CSR #4286
139th Judicial District Court § Hidalgo County, T E X A S

21
1

the indictment refers to the child as --

2

THE COURT:

3

appeal?

4

appeal.

It's not an issue for a new trial, that's an issue for

5

MS. GUERRA:

6

THE COURT:

7

MS. GUERRA:

8

THE COURT:

9
10

Ms. Guerra, isn't that an issue for

Your Honor, yes, I understand.
I mean -It is an issue for appellate -The charge, the way it was done, and,

you know, there was no objections.

I mean, isn't that something

that --

11

MS. GUERRA:

Your Honor, we're trying to preserve

12

our appeal by asking these questions.

13

Judge, but if I could just have a few minutes.

14
15

THE COURT:

MS. GUERRA:

17

THE COURT:

18

MS. GUERRA:

20

But you're rehashing stuff and it's

just --

16

19

It won't take very long,

I don't think --- it's just a waste of time.
I don't think this issue has ever

come up before.
Q.

(BY MS. GUERRA)

In Paragraphs 2 and 3 of the charge

21

pertaining to Count Two and Three.

22

indictment, Count Two, it states Joel, correct, if you recall?

23
24
25

A.

In Paragraph 2 of the

I don't have it in front of me, but I believe that's

correct.
Q.

And the charge had a different name?

JESSIE C. SALAZAR, Texas CSR #4286
139th Judicial District Court § Hidalgo County, T E X A S

22
1

A.

Yes.

2

Q.

You recall what that name was?

3

A.

I believe Julian, or Jose.

4

Q.

Jose?

5

A.

Jose or Julian.

6

Q.

Okay.

I forget.

And in the course of you conducting your

7

investigation in this case, did you ever attempt to search for a

8

death certificate?

9

A.

I don't recall to be honest with you.

10

Q.

I'm handing you what I'm marking as Defense Exhibit 4.

11

MS. GUERRA:

12

THE COURT:

May I approach, Your Honor?
I'm going to recess this hearing.

13

You are not prepared.

Step down.

14

You should have everything pre-marked and ready to go.

15

MS. GUERRA:

16

THE COURT:

17

MS. GUERRA:

18

THE WITNESS:

19

THE COURT:

20

Get off the witness stand.

It's marked, Your Honor.
You may step down, sir.
It's marked right now.
Did you say to step down, Judge?
I don't know when they are going to

be ready to try this thing.

21

MS. GUERRA:

22

THE COURT:

23

MS. GUERRA:

24

MR. CONNORS:

25

MS. GUERRA:

It's marked right now.
Why don't you have stuff pre-marked?
I apologize, Judge.
Judge, the rest of them are marked.
May I, Judge?

JESSIE C. SALAZAR, Texas CSR #4286
139th Judicial District Court § Hidalgo County, T E X A S

23
1

MR. CONNORS:

2

THE COURT:

It's the only one I didn't mark.
You were wrong on the time.

I think

3

it's going to take more than an hour based on how you're doing

4

it.

5
6
7
8

It's ridiculous.
Q.

(BY MS. GUERRA)

Defense Exhibit 4.
A.

I've handed you what's been marked as

Would you identify that document?

It appears to be the death certificate on Julian

Lionel Jimenez.

9

MS. GUERRA:

Your Honor, at this time we'd offer

10

the death certificate, a certified copy.

11

THE COURT:

12

MR. MORRIS:

13

THE COURT:

14

(Defendant's Exhibit No. 4 admitted into

15
16

Any objection?
No, Judge.
It's admitted.

evidence.)
Q.

(BY MS. GUERRA)

In the course of your investigation

17

of this case, did you come to a resolution as to why there was a

18

difference between Julian, the real name of the child, versus

19

what's in the charge and indictment?

20

A.

Well, there were different names being used at

21

different times.

22

Julian, and a priest used the name of Lionel Jimenez.

23

were different names going around.

24

Q.

Okay.

25

A.

No.

Some of the officers used Lionel and not
There

But you did not obtain the death certificate?
No.

JESSIE C. SALAZAR, Texas CSR #4286
139th Judicial District Court § Hidalgo County, T E X A S

24
1
2

Q.

And did you have a trial strategy as to why that was

not obtained during your investigation in the case?

3

A.

No, ma'am.

4

Q.

All right.

5

birth certificate?

6

A.

No, I didn't.

7
8

MS. GUERRA:

We'll pass the witness, Your Honor.

Your Honor, we pass the witness.

9

THE COURT:

10
11

And did you make any attempt to locate a

Go ahead.

CROSS EXAMINATION
BY MR. MORRIS:

12

Q.

Mr. Mancias, I'm Michael Morris for the State.

13

A.

Yes, sir.

14

Q.

I think you said you practiced law since 1979 in your

15

affidavit; is that correct?

16

A.

Yes, sir.

17

Q.

You also were a sitting judge in this county, were you

19

A.

Yes, sir.

20

Q.

How many years did you practice, or were you a judge?

21

A.

Twelve.

22

Q.

And your affidavit says that you were both a

18

23

not?

prosecutor and defense attorney previously?

24

A.

Yes, sir.

25

Q.

And in your affidavit, you say you researched the

JESSIE C. SALAZAR, Texas CSR #4286
139th Judicial District Court § Hidalgo County, T E X A S

25
1

possible defense of accident, but came to find that that was not

2

a defense in Texas?

3
4
5
6

A.

Well, I found out it was a not a defense in the sense

that you couldn't have the jury be instructed on accident.
Q.

And did your investigation lead you to why it's not a

defense in Texas?

7

A.

I'm sorry?

8

Q.

Did your research lead you to why it wasn't a defense

9

in Texas?

10

A.

I read some articles on it, yes.

11

Q.

Is it because it basically just negates Mens Rea and

12

it's intentionally and knowingly, reckless?

13

A.

Something like that.

14

Q.

You don't have those?

15

A.

Something like that, yes.

16

Q.

And isn't that pretty much what involuntary act does

17

as well, it says if you don't have the proper Mens Rae?

18
19

MS. GUERRA:

Objection, Your Honor.

That is an

issue of law that the jury --

20

THE COURT:

Overruled.

21

A.

What's the question, again, I'm sorry?

22

Q.

(BY MR. MORRIS)

That involuntary, the involuntary act

23

instruction does a similar thing.

It basically negates Mens Rae

24

if you do an involuntary act, if you don't act with knowledge or

25

intent or reckless required knowledge of a dangerous --

JESSIE C. SALAZAR, Texas CSR #4286
139th Judicial District Court § Hidalgo County, T E X A S

26
1

A.

Well, it appears it's not a similar thing.

2

Q.

Hmm?

3

A.

It appears it's not the similar thing.

4

Q.

But you would agree that one cannot knowingly or

5

intentionally do something and have it be a involuntary act?

6

A.

Yes, sir.

7

Q.

Involuntary act is something that doesn't rise to the

8

conscious level, correct?

9

A.

Something that's not intentional.

10

Q.

Yes.

So if a jury found that someone intentionally or

11

knowingly did it, you believe that they couldn't find someone

12

that acted in an involuntary manner?

13

A.

I have no idea.

14

Q.

Well, you just said that an involuntary act is

15

something that's not intentional?

16

A.

That's what I think it is.

17

Q.

Okay.

And in Count Two of this, they found that the

18

Defendant intentionally or knowingly caused an injury to a

19

child, correct?

20

A.

Yes, sir.

21

Q.

You believe that you could have an intentional or

22

knowing act that was involuntary, or what would require you knew

23

you did something, you knowingly did it, you knowingly did an

24

involuntary act?

25

A.

Well, it seemed inconsistent to me.

JESSIE C. SALAZAR, Texas CSR #4286
139th Judicial District Court § Hidalgo County, T E X A S

27
1

MR. MORRIS:

2
3
4
5
6

REDIRECT EXAMINATION
BY MS. GUERRA:
Q.

Mr. Mancias, the State has the burden to disprove that

involuntariness under 6.01, correct?
A.

That is what the instruction says, yes, ma'am.

7

MS. GUERRA:

8
9
10
11

No further questions, Your Honor.

Pass the witness.

RECROSS EXAMINATION
BY MR. MORRIS:
Q.

Do we not also have the burden to prove Mens Rae

beyond a reasonable doubt?

12

A.

Yes, sir.

13

Q.

So we had to prove that she intentionally or knowingly

14

committed injury to a child?

15

A.

Yes, sir.

16

Q.

Okay.

17

MR. MORRIS:

18
19
20
21
22

No further questions, Your Honor.

FURTHER REDIRECT EXAMINATION
BY MS. GUERRA:
Q.

And Mr. Mancias, 2.03 shifts the burden to the State,

correct, of the Penal Code?
A.

23

I would have to look at it to be honest with you.
MR. CONNORS:

May I approach, Your Honor?

24

A.

And your question is what, Ms. Guerra, I'm sorry?

25

Q.

(BY MS. GUERRA)

That the 2.03 of the Penal Code

JESSIE C. SALAZAR, Texas CSR #4286
139th Judicial District Court § Hidalgo County, T E X A S

28
1
2

shifts the burden to the State.
A.

Yes.

3

MS. GUERRA:

Pass the witness.

4

MR. MORRIS:

No questions, Your Honor.

5

THE COURT:

6

THE WITNESS:

7

THE COURT:

8

MS. GUERRA:

9

THE COURT:

10

You may step down.
Thank you, Judge.
Call your next witness.
Mr. Michael Tuttle, Your Honor.
Mr. Tuttle come up here.

Go ahead.

11

MICHAEL DEAN TUTTLE,

12

having been duly sworn, testified upon his oath, as follows,

13

to-wit:

14
15

DIRECT EXAMINATION
BY MS. GUERRA:

16

Q.

Please state your name for the record, please.

17

A.

Michael Tuttle.

18

Q.

You are a lawyer who practices law in Hidalgo County?

19

A.

Yes.

20

Q.

And how long have you practiced law here?

21

A.

Since -- well, I have been practicing law since 2002;

22

I came to Hidalgo County in 2003.

23

MS. GUERRA:

24

THE COURT:

25

Q.

(BY MS. GUERRA)

May I approach, Your Honor?
You may.
I'm handing you what's been marked as

JESSIE C. SALAZAR, Texas CSR #4286
139th Judicial District Court § Hidalgo County, T E X A S

APPENDIX J –
Testimony Excerpts of Attorney Michael Tuttle

28
1
2

shifts the burden to the State.
A.

Yes.

3

MS. GUERRA:

Pass the witness.

4

MR. MORRIS:

No questions, Your Honor.

5

THE COURT:

6

THE WITNESS:

7

THE COURT:

8

MS. GUERRA:

9

THE COURT:

10

You may step down.
Thank you, Judge.
Call your next witness.
Mr. Michael Tuttle, Your Honor.
Mr. Tuttle come up here.

Go ahead.

11

MICHAEL DEAN TUTTLE,

12

having been duly sworn, testified upon his oath, as follows,

13

to-wit:

14
15

DIRECT EXAMINATION
BY MS. GUERRA:

16

Q.

Please state your name for the record, please.

17

A.

Michael Tuttle.

18

Q.

You are a lawyer who practices law in Hidalgo County?

19

A.

Yes.

20

Q.

And how long have you practiced law here?

21

A.

Since -- well, I have been practicing law since 2002;

22

I came to Hidalgo County in 2003.

23

MS. GUERRA:

24

THE COURT:

25

Q.

(BY MS. GUERRA)

May I approach, Your Honor?
You may.
I'm handing you what's been marked as

JESSIE C. SALAZAR, Texas CSR #4286
139th Judicial District Court § Hidalgo County, T E X A S

29
1

Defendant's Exhibit 3.

2
3

A.

Yes.

Would you identify that, please.

It's an affidavit that I signed on October 28th

of 2016.

4

Q.

Is everything in that affidavit true and correct?

5

A.

Yes.

6

Q.

Did you have a chance to study the issue of

7

involuntary conduct under 6.01 of the Penal Code after the jury

8

rendered its verdict in this case?

9

A.

Yes.

10

Q.

Did you -- were you aware of that involuntary conduct

11

issue that you have studied at the time that you were trying the

12

case?

13

A.

No, when -- when I was hired, Mr. Mancias and I, we

14

discussed some of the legal issues in the case.

15

issues after, you know, seeing the facts and reviewing the facts

16

both of us thought it was in the nature of an accident.

17

discussed that issue that the accident defense was no longer

18

available under Texas law and that's the -- that's pretty much

19

where we stopped there, or where I stopped.

20
21

Q.

Right.

And one of the

And we

So you did not study, or you were not aware of

the issue of 6.01 Involuntary Conduct?

22

A.

Not before the jury rendered its verdict, no.

23

Q.

Okay.

24

A.

Yes.

25

Q.

And would you have -- had you been aware of it, is it

And now you are aware of it?

JESSIE C. SALAZAR, Texas CSR #4286
139th Judicial District Court § Hidalgo County, T E X A S

30
1

an issue that you should have submitted to the jury?

2

A.

Well, it's -- to be frank, it's a difficult issue to

3

grasp because you have on the one hand the element of

4

intentional conduct that the State has to prove, but then on the

5

other hand, the voluntary conduct defense.

6

-- they are kind of difficult to reconcile, but if you can

7

repeat your question, I guess.

8

Q.

Okay.

9

A.

That's correct.

And so it's -- it's

Well, the burden shifts, does it not?
It appears that like a normal

10

defense, like self-defense, the burden would shift to the State

11

to prove that it was something other than involuntary conduct.

12

Q.

Okay.

13

A.

Is my understanding.

14

MS. GUERRA:

15

THE COURT:

16
17

Q.

(BY MS. GUERRA)

May I approach, Judge?
Yes.
I'm handing you what's been marked as

Defendant's 5 and Defendant's 6.

Have you read those?

18

A.

Yes.

19

Q.

Would you just identify them for the record?

20

A.

Defendant's 5 is Count One Requested Instructions to

21

Iury, and Defendant's 6 is Count Two Requested Instructions to

22

Jury.

23
24
25

Q.

Those are proposed, correct, that we're now saying

should have been submitted to the jury?
A.

That's correct.

JESSIE C. SALAZAR, Texas CSR #4286
139th Judicial District Court § Hidalgo County, T E X A S

31
1
2

MS. GUERRA:

Your Honor, at this time we offer

State's Exhibit 4 --

3

THE COURT:

4

MS. GUERRA:

5

THE COURT:

6

MR. MORRIS:

7

THE COURT:

8

MR. MORRIS:

9

THE COURT:

10

MR. DEVINO:

Have you tendered them to the State?
I mean, I'm sorry -Have you seen them?
Yes, Judge.
You have seen them?
Yes, Judge.
Any objection?
As to the affidavit, we do have an

11

objection, Judge.

I refer the Court that part of his affidavit

12

speaks to post judgment -- post trial discussion with jurors

13

wholly prohibited under 608, 606(b) that prohibits that sort of

14

testimony from a juror and they can't bring it forward from the

15

juror.

16

advised him of.

Also, it's hearsay because he's saying what the juror

17

So on those two basis as to the last paragraph of

18

this affidavit, we do raise an objection.

19

should be stricken from any affidavits submitted into evidence.

20

I think that that

It's saying the juror told me this; the juror

21

told me that, which would be hearsay and it goes to the

22

deliberating process, the evidence of which is barred.

23
24
25

MS. GUERRA:

Well, that juror is going to be here

MR. DEVINO:

She is not going to be permitted to

to testify.

JESSIE C. SALAZAR, Texas CSR #4286
139th Judicial District Court § Hidalgo County, T E X A S

32
1

testify to these issues under 606, Judge.

2

MS. GUERRA:

And we -- we would maintain that she

3

is.

Furthermore, Your Honor, if the Court is not going to allow

4

her to testify, we are going to ask that her testimony be

5

submitted in a bill.

6

MR. DEVINO:

7

THE COURT:

8

you know the rules, right?

9

MR. DEVINO:

10
11
12

record, Judge.

If I may, Judge?
Well, I mean, you know the -- I mean,

You don't just get to create a

I'm sorry.
THE COURT:

I'm sorry?

You know the rules

regarding juror testimony, right?

13

MS. GUERRA:

14

THE COURT:

15

MS. GUERRA:

16

we feel like it does not fall under that.

17

THE COURT:

18
19
20

Yes, I know that, Your Honor.
Okay.
We have studied that carefully and

I'm going to sustain your objection

on these exhibits.
MR. CONNORS:

Honor, is what he's objecting to on the Page Two.

21

MR. DEVINO:

22

MR. CONNORS:

23
24
25

On the last paragraph only, Your

Of the affidavit.
As to the rest of the affidavit he

says it's admissible as I understood it.
MR. DEVINO:

The rest of the affidavit -- we

object only at last paragraph of the affidavit of Mr. Tuttle.

JESSIE C. SALAZAR, Texas CSR #4286
139th Judicial District Court § Hidalgo County, T E X A S

33
1

THE COURT:

2

MR. CONNORS:

3

That's sustained.
Now, is the rest of it admitted

into evidence?

4

THE COURT:

5

MR. CONNORS:

6

THE COURT:

7

MR. DEVINO:

8

THE COURT:

9

MR. DEVINO:

-- we'll get a redacted copy or

MS. GUERRA:

And we'll need an un-redacted copy

10

13
14
15

It is admitted, right?
The rest of it is admitted.
I guess -Just redact.

something.

11
12

The rest of it can all be admitted.

sealed for the Court of Appeals.
Q.

All right.

(BY MS. GUERRA) As far as Exhibits 5 and 6, those are

the proposed instructions in the charge, correct?
A.

That's correct.

16

MS. GUERRA:

And we offer those as well.

17

MR. MORRIS:

No objection.

18

THE COURT:

19

(Defendant's Exhibit Nos. 5 and 6 admitted into

20
21

Those are admitted.

evidence.)
Q.

(BY MS. GUERRA)

Was there a trial strategy as to why

22

those were not -- the charge was not objected to, and because it

23

did not contain an instruction and charge as to involuntary

24

conduct?

25

A.

No.

JESSIE C. SALAZAR, Texas CSR #4286
139th Judicial District Court § Hidalgo County, T E X A S

34
1

MS. GUERRA:

Pass the witness.

2

MR. MORRIS:

I don't think we have any questions

3

of this witness, Judge.

4

THE COURT:

You may step down.

5

THE WITNESS:

Thank you, Your Honor.

6

MR. CONNORS:

Judge, for the record, I offered

7

into evidence when we started earlier this morning, the first

8

time, Defense 1, and I don't know that you ever accepted it.

9

THE COURT:

10

MR. CONNORS:

11

THE COURT:

12

MR. MORRIS:

13

MR. CONNORS:

14

MR. MORRIS:

Have you given them that?

15

That's the Motion for New Trial.
Any objection?
No.

Motion for New Trial, Judge?

That's right.
Aside from it's already in the file,

but we don't have any objection.

16

THE COURT:

17

MR. MORRIS:

It's already been --

18

MR. DEVINO:

Without attachments.

19

(Defendant's Exhibit No. 1 admitted into

20

It's admitted.

evidence.)

21

THE COURT:

22

MR. CONNORS:

23

We call the juror, Your Honor, Ms. Lozano.

24

MR. DEVINO:

25

to this testimony.

Next witness.
It has no attachments, Judge.

Judge, we're going to object wholly

By the way they tell in their affidavit, I

JESSIE C. SALAZAR, Texas CSR #4286
139th Judicial District Court § Hidalgo County, T E X A S

APPENDIX K -Testimony Excerpts of Juror L

36
1

deliberations.

2

MS. GUERRA:

3

THE COURT:

4

MS. GUERRA:

5

Yes, it does.
But not about this issue, Your

Honor.

6
7

No.

THE COURT:

I'm not going to allow you to ask

questions.

8

MS. GUERRA:

9

respectfully, Your Honor.

10

THE COURT:

11

MR. CONNORS:

We are going to need to do a bill,

12

Okay. You may step down.
Judge, the appellate court allows

us to make a bill as to --

13

THE COURT:

14

Ma'am, come back.

15

MR. CONNORS:

16

Of course you can make a bill.

I have to do that through

testimony.

17

THE COURT:

18

THE WITNESS:

Yes, I was.

19

MR. CONNORS:

Yes, she was.

20

THE COURT:

21

Were you placed under oath?

Go ahead.

YESSICA LOZANO,

22

having been duly sworn, testified upon her oath, as follows,

23

to-wit:

24
25

DIRECT EXAMINATION
BY MR. CONNORS:

JESSIE C. SALAZAR, Texas CSR #4286
139th Judicial District Court § Hidalgo County, T E X A S

37
1

Q.

State your name, please.

2

A.

Yessica Lozano.

3

Q.

And were you one of the 12 serving jurors in this

4

courtroom that convicted Sandy Perez Hernandez of two crimes?

5

A.

Yes, I was.

6

Q.

And if you could look at Defense Exhibit 5 as to Count

7

One, that would be the one where the jury came back with a

8

reckless -- with a reckless, we call it Manslaughter, reckless

9

causing the death.

10

And the question is if you had received this law,

11

or something close to it from the Judge about Texas Penal Code

12

6.01, would your personal verdict have been different?

13

A.

Probably.

14

Q.

And as to Count Two, we've set out the proposed law

15

about 6.01 in Defense Exhibit No. 6.

16

came back and said that Ms. Perez had intentionally and

17

knowingly caused serious bodily injury to the child.

18

And that's where the jury

My question is if Judge had given you that

19

information about 6.01 there in front of you in Defense 6 as to

20

Count Two, serious bodily injury, would that have changed your

21

verdict if you had that law on 6.01?

22

A.

Probably.

23

MR. CONNORS:

24

MR. DEVINO:

25

THE COURT:

Pass the witness, Judge.
No questions.
You may step down.

Thank you.

JESSIE C. SALAZAR, Texas CSR #4286
139th Judicial District Court § Hidalgo County, T E X A S

